<html>
<title> - THE URGENT NEED FOR A NATIONAL PLAN TO CONTAIN THE CORONAVIRUS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         THE URGENT NEED FOR A
                        NATIONAL PLAN TO CONTAIN
                            THE CORONAVIRUS

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2020

                               __________

                           Serial No. 116-109

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                            
                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-909 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                            
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

           David Hickton, Select Subcommittee Staff Director
                       Russ Anello, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green, Tennessee
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2020....................................     1

                               Witnesses

Dr. Anthony S. Fauci, Director, National Institute of Allergy and 
  Infectious Diseases
Oral Statement...................................................     8
Admiral Brett P. Giroir, Assistant Secretary for Health, 
  Department of Health and Human Services
Oral Statement...................................................     9
Dr. Robert R. Redfield, Director, Centers for Disease Control and 
  Prevention
Oral Statement...................................................    11

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

  * Admiral Giroir Correction Letter.

  * Letter from the Association of American Medical Colleges to 
  Chairman Clyburn and Ranking Member Scalise; submitted by 
  Select Subcommittee Chairman Clyburn.

  * ``Dr. Anthony Fauci says large protests taking place across 
  the country are 'a perfect set-up' for spreading COVID-19'', 
  article; submitted by Rep. Jordan.

  * ``Dr. Fauci voices concerns about coronavirus spreading amid 
  nationwide protests'', article; submitted by Rep. Jordan.

  * ``Researchers Say Protests Didn't Increase Covid-19 Spread-
  But Republicans Are Still Blaming Them'', article; submitted by 
  Committee Chairwoman Maloney.

  * NBER Report, ``Black Lives Matter Protests, Social 
  Distancing, and COVID-19''; submitted by Committee Chairwoman 
  Maloney.

  * Questions for the Record: to Dr. Fauci; submitted by Rep. 
  Raskin.

  * Questions for the Record: to Dr. Redfield; submitted by Rep. 
  Raskin.


 
                         THE URGENT NEED FOR A
                        NATIONAL PLAN TO CONTAIN
                            THE CORONAVIRUS

                              ----------                              


                         Friday, July 31, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 9:11 a.m., in 
room 2154, Rayburn House Office Building, Hon. James E. Clyburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Raskin, Scalise, Jordan, Luetkemeyer, 
Walorski, and Green.
    Mr. Clyburn. Good morning. Let me welcome everybody.
    Today our select subcommittee is holding a hybrid hearing 
where some members will appear in person and others will appear 
remotely via Webex.
    Since some members are appearing in person, let me first 
remind everyone, pursuant to the latest guidelines from the 
House Attending Physician, all individuals attending this 
hearing in person must wear a face covering. Members who are 
not wearing a face covering are not permitted to remain in the 
hearing room and will not be recognized to speak.
    Let me also make a few reminders about hybrid hearings.
    For those members appearing in person, you will be able to 
see members appearing remotely on the two monitors in front of 
you. On one monitor you will see all the members appearing 
remotely at once in what is known as Webex grid view mode. On 
the other monitor you will see each person speaking during the 
hearing when they are speaking, including members who are 
appearing remotely.
    For those members appearing remotely, you can also see each 
person speaking during the hearing, whether they are in person 
or remote, as long as you have your Webex set to active speaker 
mode.
    If you have any questions about this, please contact 
committee staff immediately.
    Let me also remind everyone of the House procedures that 
apply to hybrid hearings. For members appearing in person, a 
timer is visible in the room directly in front of you. For 
those who may be remote, we have a timer that should be visible 
on your screen when you are in the active speaker with 
thumbnail mode and you have the timer pinned.
    For members who may be appearing remotely, a few other 
reminders. The House rules require that we see you. So, please 
have your cameras turned on at all times, not just when you are 
speaking. Members who are not recognized should remain muted to 
minimize background noise and feedback.
    I will recognize members verbally, and members retain the 
right to seek recognition verbally. In regular order, members 
will be recognized in seniority order for questions.
    If you are remote and want to be recognized outside of 
regular order, you may identify that in several ways. You may 
use the chat function to send a request. You may send an email 
to the majority staff. Or you may unmute your mic to seek 
recognition.
    Obviously, we do not want people talking over each other. 
So, my preference is that members use the chat function or 
email to facilitate formal verbal recognition. Committee staff 
will ensure that I am made aware of the request, and I will 
recognize you.
    As members of the committee are likely aware, we expect 
votes to be called in the middle of this hearing. Out of 
respect for members' and witnesses' time, and because of the 
long duration of each vote during this public health emergency, 
I do not plan to recess the hearing at any time.
    Committee members, including those who are recognized for 
questions while the vote is ongoing, will have sufficient time 
to step out of the hearing, cast their vote, and return to the 
hearing.
    We will begin this hearing in just a moment when they tell 
me they are ready to begin the livestream.
    [Pause.]
    Chairman Clyburn. We are having some audio problems with 
the livestream and we're trying to get that straightened out 
before we begin.
    [Pause.]
    Chairman Clyburn. Good morning. I think we've gotten it 
straightened out.
    Ladies and gentlemen, our Nation is in the midst of a 
public health catastrophe. As of this week, more than 150,000 
Americans are dead from the coronavirus, by far the most of any 
country in the world.
    As the virus is still spreading rapidly across our country, 
it took nearly three months for the United States to go from 
one infection to 1 million. Now we are at more than 4 million, 
with at least a million Americans infected in just the last two 
weeks.
    Hospitalizations and deaths are unacceptably high. 
Hospitals in some states are at risk of running out of beds, 
and some hospitals have reported that they may be forced to 
choose which patients to treat and which to send home to die. 
On our current course, experts predict another 150,000 
Americans could lose their lives from the coronavirus by the 
end of this year.
    My goal today is simple: to hear from our Nation's top 
public health experts on what steps we need to take to stop the 
unnecessary deaths of more Americans.
    To improve our response, we need to identify and correct 
past failures, especially those that are ongoing.
    Regrettably, nearly six months after this virus claimed its 
first American life, the Federal Government has still not yet 
developed and implemented a national strategy to protect the 
American people.
    The administration has failed on testing. While they were 
given warnings, including from this committee, that millions 
more tests were needed, at least 11 states, including my home 
state of South Carolina, are currently conducting less than 30 
percent of the tests they need to control the virus.
    The state cases are surging. States now face severe testing 
shortages, wait time results are a week or longer in many 
places, and some states have been forced to ration scarce 
tests, limiting them to only the sickest patients.
    Without widely available rapid testing, it is nearly 
impossible to control the spread of the virus and safely reopen 
our economy.
    Yesterday it was reported that back in April the 
administration considered implementing a national strategy to 
coordinate the distribution of test kits and contact tracing 
infrastructure, but it decided not to do so because at the time 
the virus was primarily spreading in blue states.
    Since the earliest days of this crisis, the Trump 
administration has also refused to call on Americans to take 
simple steps to stay safe, like wearing a mask and social 
distancing. Instead, the President has downplayed the severity 
of the crisis, claiming the virus will disappear, sidelining 
government experts who disagree, and seek to legitimize 
discredited remedies.
    When the public health agencies contradict the White 
House's political message, for example, when the CDC warned 
that fully reopening schools presented the highest risk for 
spreading the coronavirus, the White House pressured the agency 
to change their advice.
    The result of these decisions is that the virus has 
continued to rage out of control and our Nation's economic 
misery has continued.
    That brings us to today's hearing. It is clear that the 
administration's approach of deferring to the states, 
sidelining the experts, and rushing to reopen has prolonged 
this virus and led to thousands of preventable deaths. In fact, 
the United States' response stands out as among the worst of 
any country in the world.
    My question is, where should we go from here? Today I am 
calling for the administration to finally give America a 
comprehensive national plan that prioritizes science over 
politics. That plan should include buying and distributing 
enough tests and protective gear for every American who needs 
them, and it should include clear public health guidance to 
every American to help curb the spread of the virus.
    I am looking forward to hearing from our panel what 
commonsense steps we can take as a country to control this 
virus and how the administration plans to accomplish this goal.
    Today's witnesses have long, distinguished careers under 
both Republican and Democratic Presidents. Public health is not 
a partisan issue, and I hope that all members of the committee 
will join me in seeking the best health advice for the American 
people, not fighting partisan political battles.
    We do not need to lose another 150,000 American lives. But 
if we do not make drastic changes now, this tragic outcome is 
well within the realm of possibility.
    The chair now recognizes the distinguished ranking member 
for his opening statement.
    Mr. Scalise. Thank you, Mr. Chairman, and thank our 
witnesses for being here.
    Before I open, I do want to mention, Mr. Chairman, this is 
our first meeting that we've had since the passing of our dear 
friend and colleague, John Lewis. I know you personally were 
friends with him for roughly 60 years. And we all feel that 
loss. Very fitting tributes yesterday.
    He was a dear colleague, but he was also a key, important 
part of the movement that has made America an even greater 
Nation. It's very fitting that our country has been paying such 
great tribute to a dear friend and an icon in the civil rights 
movement, our friend, John Lewis.
    Thank you again, Mr. Chairman, too, for having this 
hearing.
    I want to thank the witnesses. And I also want to thank 
your teams, because you represent what is on the front lines of 
President Trump's plan to combat the coronavirus crisis.
    For anybody to suggest that there's not a plan--in fact, 
when you look at the title of today's hearing, ``Urgent Need 
for a Plan,'' that's not the title of a hearing. That's a 
political narrative, and a false political narrative at that.
    You wouldn't even be here today if there wasn't a plan, 
because you are the people tasked with carrying out the plan. 
In fact, if you were sidelined, you wouldn't be here either. 
And I know some people want to suggest that, but maybe they 
haven't spent time reading different components of the plan.
    These are just a few, by the way, a few of the documents 
that your agencies have published to show states how to safely 
reopen, to show schools how to safely reopen, to show nursing 
homes how to care for their patients--which, by the way, if all 
Governors would have followed those guidelines, thousands more 
seniors in nursing homes would be alive today, if just five 
Governors would have followed your plan that was developed by 
President Trump and is being carried out by you and your teams 
effectively every day.
    So, again, let me thank you on behalf of the millions of 
American people who are alive today that wouldn't be alive if 
you weren't carrying out President Trump's effective plan to 
keep Americans safe as we learn about this virus, as we work to 
get a cure for this virus.
    And, by the way, the cure, Operation Warp Speed, is part of 
President Trump's national plan. I think we've all seen just 
how close we are to a vaccine, which is revolutionary, 
revolutionary in modern time to be this close to a vaccine. We 
wouldn't be here that close to a vaccine without President 
Trump's leadership and without the work of you and your teams 
to carry out that plan.
    So, again, I appreciate the work that you continue to do. 
Every day we learn more about a plan. Like any plan, whether 
it's a military plan or a football plan, you start the first 
play with a plan, and then the plan has to change as things 
change along the way, and we're seeing that play out daily.
    When you look at the work that's been done, I think we talk 
about different parts of the guidance. We've not always been in 
agreement on each part of them, but we've had a number of 
hearings where we've talked through how to improve testing. In 
fact, one of the first hearings we had in this committee on 
testing was back when America was maybe conducting less than 
200,000 tests a day.
    Today, because of the work that you all have been doing and 
because of the President's plan, we're at over 800,000 tests 
per day, and that number continues to grow.
    Nobody is stopping. Nobody is resting on their laurels. But 
when you look at that trajectory, again, going from a virus 
that no one even knew about just six months, that China lied 
about during that period, where we could have learned a lot 
more, where we could have saved more lives while China was 
lying--I wish we would have hearings on that, because that is a 
real fact. That's not a political talking point.
    We all know not only did China lie, they corrupted the 
World Health Organization, and they were perpetuating that as 
well, and it made it harder for us.
    I remember being in a meeting at the White House with Dr. 
Fauci months ago, before it was a global pandemic, and we were 
talking about the desire to get some of our medical experts 
into China to find out what was really going on, and they 
wouldn't let you in. The Chinese Communist Party wouldn't let 
you in when President Trump wanted to send medical experts into 
China before it spread into the United States, and that cost 
lives.
    Why aren't we having a hearing about that?
    Clearly, we talk about some of the other different things 
that were done to stop the spread. This President actually did 
develop an early plan called ``15 Days to Stop the Spread.'' It 
was one of the first real organized plans to encourage states 
to pull back.
    It wasn't an easy plan for the President to have to issue, 
but it was necessary. In fact, there were meetings in the White 
House. I think Dr. Fauci and Dr. Birx were there as that plan 
was being carried out that you determined maybe we need to go 
longer, to go 30 more days, and, in fact, by going 30 more 
days, you could save 1 million, maybe 2 million more lives. 
Then President Trump announced that plan and did save those 
lives.
    The Trump administration then released a plan called 
``Guidelines: Opening Up America Again'' on how states could 
safely reopen. It's this part of the plan, by the way. Maybe 
some people are so busy reading tweets that they haven't 
actually read the plan. It's really good guidance issued by 
some of the most recognized international experts on disease 
prevention. Some of you here today represent parts of this 
plan.
    So, in ``Opening Up America Again'' it showed how states 
could safely reopen. The plan was developed by public health 
experts. Some complain that President Trump didn't have the 
power to force states to reopen. So, the administration 
actually released guidelines so that states had discretion.
    Each state, we all understand how the Tenth Amendment 
works, each Governor is in charge of their state. Nursing homes 
are actually regulated by the states, not by the Federal 
Government. But we give guidance, and it's been really good 
guidance. In fact, that guidance has saved lives.
    We hear cities, we hear people talking about the cries of 
the need for testing. So, let's talk about what HHS has done to 
lead on testing. Zero tests--again, go back a few months ago--
zero tests to now over 800,000 tests a day. In a matter of just 
months, over 52 million tests have been conducted nationally.
    Again, nobody is slowing down. We are actually increasing 
that number. We will be over a million tests a day. Maybe we 
will have a hearing on how much progress we've made there, and 
we want to continue to make progress.
    I know Dr. Giroir was in Baton Rouge with me just a few 
weeks ago with the Vice President talking about what we're 
doing to increase testing, even to limit the number of days as 
a goal to get below seven days for anybody to get results.
    And that number has narrowed dramatically. Now more than 
half of America--half of Americans who get tested get their 
results in less than 24 hours because of the rapid work that 
this team has done carrying out the President's plan.
    Testing is not just about numbers. It's about targeting 
testing to the right people at the right time.
    To that point, the Trump administration has begun 
distribution of rapid point-of-care tests to nursing homes. 
I've talked to nursing home heads recently who said that 
decision by the Trump administration, to purchase an actual 
testing kit for every single nursing home in America, over 
15,000 nursing homes, each of them will have their own 15-
minute test, that will save lives. That's part of this plan.
    On May 15, 2020, President Trump announced Operation Warp 
Speed, again, part of a very direct and national plan to combat 
this deadly virus. Operation Warp Speed is a public-private 
partnership between several Federal agencies to accelerate the 
development, manufacturing, and distribution of a COVID-19 
vaccine, as well as therapies, diagnostics, other things to 
direct the specific goal of delivering 300 million doses of a 
safe, effective, FDA-proven vaccine for COVID-19 by January 
2021.
    And we're seeing that happen at remarkable speed. In fact, 
we're not just going to wait for FDA approval. They are mass 
producing those vials right now so that if there is one of 
those vaccines approved by the FDA, it's ready to go. We don't 
start manufacturing at that point and cost us more weeks, we're 
actually ready to go.
    By the way, some of that money was money that we passed in 
the CARES Act that President Trump has used effectively to be 
ready as the vaccines are being developed in testing phases.
    Dr. Fauci, I look forward to learning more of the stunning 
progress that we've seen researchers make on cures and 
vaccines. I know you've been involved in researching some of 
the most awful deadly viruses that we've known in the history 
of the world, HIV, Ebola, of course now corona. We still don't 
have a vaccine for HIV. There has been over 10 years of work.
    You have done remarkable work to at least give therapy so 
that people can extend their lives. But not a proven vaccine 
for so many of these diseases years and years later. And here 
we are six months into corona, and we are this close to a 
vaccine.
    So, you look at where we have seen the Chinese Government. 
We hopefully will get into conversations about how costly it 
was, how many lives were lost because the Chinese Communist 
Party lied to the world, not just the United States, but the 
world, getting the World Health Organization to give false 
information in those critical early days.
    But why don't we now talk about moving into August. A lot 
of work is being done to talk about how to safely reopen 
schools. In fact, more guidance was just given as part of this 
plan by CDC to safely reopen schools.
    We saw, of course, the American Academy of Pediatrics gave 
great guidance on how to safely reopen schools and went further 
and talked about the damage to children when you don't reopen 
schools. So, much damage being done to our children in those 
systems where they are talking about not reopening.
    Hopefully we can shine some light and show those other 
school systems how they can safely reopen and serve those 
children, millions and millions of children who are counting on 
us to get it right. Those school systems have to get it right.
    There's money, by the way, still available at every state 
for sanitizer, for masks, for all the things you would need to 
safely reopen. It's not about money. It's about the will, the 
desire to do it.
    We have the will. You've had the will. You have been 
carrying out the President's plan. Every day we will learn 
more. Every day we will continue to strive to address the new 
challenges. But let's not forget the things that have already 
been done as part of this plan that have saved millions of 
lives.
    We mourn every loss. But let's also recognize the lives 
that would have been lost if you weren't on the job carrying 
out President Trump's plan to contain this, to find a vaccine, 
which we're on the brink of, and to help safely reopen our 
economy, safely reopen our schools, so that we can get back to 
our way of life as we combat this deadly virus.
    With that, I will look forward to hearing from our 
witnesses.
    Thank you, Mr. Chairman. I yield back.
    Chairman Clyburn. Thank you, Mr. Ranking Member.
    I would now like to introduce our witnesses.
    Today the select committee is pleased to welcome Dr. 
Anthony Fauci, the Director of the National Institute of 
Allergy and Infectious Disease at the National Institutes of 
Health.
    We welcome back Admiral Brett Giroir, the Assistant 
Secretary for Health at the Department of Health and Human 
Services.
    And, finally, we welcome Dr. Robert Redfield, Director of 
the Centers for Disease Control and Prevention.
    Thank you to all of our witnesses for being here today.
    Will the witnesses please stand so I may swear them in?
    Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    You may be seated.
    Let the record show that the witnesses all answered in the 
affirmative.
    Without objection, your written statements will be made 
part of the record.
    Dr. Fauci, you are recognized for your opening statement.

    STATEMENT OF ANTHONY S. FAUCI, M.D., DIRECTOR, NATIONAL 
    INSTITUTE OF ALLERGY AND INFECTIOUS DISEASES, NATIONAL 
                      INSTITUTES OF HEALTH

    Dr. Fauci. Thank you very much, Mr. Chairman, Ranking 
Member Scalise, members of the committee. Thank you for giving 
me the opportunity to discuss with you today the role of the 
National Institutes of Health in a research endeavor to address 
COVID-19.
    Our strategic plan, which we put together several months 
ago, embarks on four separate points.
    The first is to improve fundamental knowledge of the virus 
and the biology of the virus and the response to the virus. 
This has led to a delineation of the Cryo-EM structure of the 
famous now spike protein, which is the target of virtually all 
of the vaccines that are being produced today.
    In addition, to delineate the nature of the receptor in the 
body to which the virus binds, very important in understanding 
the pathophysiology and pathogenesis.
    In addition, a number of natural history studies, including 
a study that was started in May to understand better the role 
of infection in children and what role they play in spreading 
the virus.
    In addition, we've been involved in the second component, 
which is the development of diagnostics and assays, one of 
which, I will point out to you, is the NIH Rapid Acceleration 
of Diagnostics, referred to as RADx, including that that is 
deemed aimed at underserved populations, with a very large 
investment of money to develop point-of-care diagnostics to 
facilitate even more our diagnostic capability.
    Next is the characterization and testing of therapeutics. 
It is well known now that over the past several weeks there 
have been two therapeutics that have passed randomized placebo-
controlled trials for individuals late in the course of 
disease.
    One of these is Remdesivir, a trial run by the NIH, which 
showed a statistically significant improvement in the time to 
survival in individuals who were hospitalized with pulmonary 
disease. That has now been part of the standard of care in 
individuals with moderate to advanced disease.
    In addition, a placebo-controlled randomized trial of 
Dexamethasone showed an improvement in death rate in a highly 
significant manner in individuals on respirators, as well as 
those requiring oxygen.
    Then, finally, the development and testing of effective 
vaccines.
    Several months ago we put together what we call a strategic 
approach to COVID-19 vaccine research and development. And the 
reason we did this is because there are multiple candidate 
vaccines that are moving along at a very rapid pace, and we 
wanted to make sure that they learned from each other.
    So, we made standardized protocols, common data and safety 
monitoring boards, common primary and secondary end points, and 
common individual laboratory tests.
    There are three separate platforms that are being pursued 
with government help, nucleic acid, including the mRNA of 
Moderna, viral vectors, such as adeno vectors and VSV, and 
protein subunits.
    One of these is a trial that started last Monday, this past 
Monday, the 27th, the beginning of a Phase 3 trial. It's a 
trial that will go over several months involving 30,000 
individuals. We hope that at the time we get into the late fall 
and early winter we will have, in fact, a vaccine that we can 
say would be safe and effective.
    One can never guarantee the safety or effectiveness unless 
you do the trial, but we are cautiously optimistic that this 
will be successful, because in the early studies in humans, the 
Phase 1 study, it clearly showed that individuals who were 
vaccinated mounted a neutralizing antibody response that was at 
least comparable and, in many respects, better than what we see 
in convalescent serum from individuals who have recovered from 
COVID-19.
    As I mentioned, the Phase 3 trial has already started; 
30,000 individuals we're already starting to enroll.
    I might also conclude, members of the committee, to point 
out that there is a website called 
CoronavirusPreventionNetwork.org, where individuals can 
actually indicate their willingness to participate in the 
clinical trials and to make sure that we have a diverse 
representation. Already, as of last night, there have been over 
250,000 individuals who have registered their interest in being 
in these trials.
    And I just want to use my last couple of seconds to urge 
anyone who is listening who wants to participate to please go 
to that website and register so that you can be part of the 
solution of this terrible scourge.
    Thank you, Mr. Chairman.
    Chairman Clyburn. Thank you very much, Dr. Fauci.
    We will now hear from Dr. Giroir--or Admiral Giroir.

  STATEMENT OF BRETT P. GIRIOR, M.D., ASSISTANT SECRETARY FOR 
        HEALTH, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Giroir. Both are fine.
    Chairman Clyburn, Ranking Member Scalise, and distinguished 
members of the committee, it is good to see all of you again.
    Testing is an essential component of America's public 
health response to COVID-19. Testing enables clinical 
decisionmaking. It heralds impending outbreaks. It informs 
resource allocation. And it assists in minimizing economic and 
social disruption.
    But we cannot test our way out of this or any other 
pandemic. Testing does not replace personal responsibility. It 
does not substitute for avoiding crowded indoor spaces or 
washing hands or wearing a mask.
    A negative test does not mean that you won't be positive 
tomorrow. A negative test does not substitute for avoiding 
crowds or wearing a mask or protecting the vulnerable with your 
actions.
    All of that being said, as of this morning, the Nation has 
performed over 59 million COVID-19 tests, now averaging over 
820,000 tests per day, up from 550,000 tests per day when I 
appeared before this committee just earlier this month. Since 
March 12, we have increased our daily testing over 32,000 
percent.
    Half of these tests are done in either point-of-care 
technologies, with results in 15 minutes or less, or at local 
hospitals, for which the turnaround time is generally within 24 
hours.
    Because of unprecedented demand, large commercial labs that 
do approximately half of the Nation's testing have become 
strained. But because of expanded capacity and newly authorized 
techniques, like pooling and novel extraction methods, 
turnaround times are definitely improving. This week LabCorp 
announced turnaround times of two to three days.
    But numbers don't tell the complete story, because this is 
not only about numbers. It is about getting the right test, at 
the right time, to the right person, with timely and actionable 
results.
    So, we will continue to execute in accordance with our 
national testing plan. This plan was initially outlined in the 
testing blueprint ``Opening Up America Again'' and the addendum 
to that blueprint. It was operationalized in the Federal 
requirements for each state's testing plan. Our plan was 
further detailed in the administration's testing strategy 
report provided to Congress on May 23.
    In short, we are, one, identifying newly emergent outbreaks 
early to facilitate swift community action; two, diagnosing 
COVID-19 rapidly in hospitalized patients to accelerate receipt 
of those proven treatments; three, protecting the vulnerable, 
both the elderly and high-risk racial, ethnic, and 
socioeconomic minorities; four, enabling identification and 
isolation of those who are infectious, coupled with contact 
tracing; five, advancing state testing plans to achieve overall 
national objectives, as well as state-specific goals; and, six, 
supporting safe reopening of schools and businesses through 
surveillance testing that does not impinge upon the clinical 
diagnostic system.
    With the limited time I have remaining I want to highlight 
two of these objectives.
    Protecting the elderly has been, is, and will continue to 
be a foremost priority for this administration. So, on July 14 
we announced that every single nursing home in the Nation would 
receive a point-of-care instrument and enough tests for their 
residents and staff to be tested.
    We are delivering on this promise. By the end of this week, 
we will have delivered, according to schedule, nearly 1 million 
point-of-care tests to 1,019 of the highest risk nursing homes, 
with another 664 nursing homes scheduled for next week.
    My next point is about surveillance testing. We should 
separate the clinical diagnostic system from the public health 
surveillance system. Diagnostics are for those who are 
hospitalized, symptomatic, or with high-risk exposures.
    Surveillance testing can be for college students, or 
potentially students in K through 12, or workers in 
environments that are not high risk, or other similar 
situations.
    This type of surveillance can occur in non-CLIA labs, like 
university research labs or veterinary diagnostic labs, outside 
of the FDA authorization system at low cost and very high 
throughput. We are working closely with states and universities 
to implement this type of system, and many of them, like LSU, 
already have.
    We have all of the tools, the supplies, and the regulatory 
framework to enable a robust surveillance system throughout the 
Nation.
    In closing, we know how to flatten the curve, slow the 
spread, and save lives. Wear a mask. Practice physical 
distancing. Avoid crowded indoor spaces. Practice good hygiene 
by washing your hands frequently. If you feel sick, stay at 
home. And protect the elderly and vulnerable populations of all 
ages through your actions.
    I look forward to your questions and thank you for the 
opportunity to provide these remarks.
    Chairman Clyburn. Thank you, Admiral Dr. Giroir.
    Dr. Redfield.

 STATEMENT OF ROBERT R. REDFIELD, M.D., DIRECTOR, CENTERS FOR 
                 DISEASE CONTROL AND PREVENTION

    Dr. Redfield. Good morning, Chairman Clyburn, Ranking 
Member Scalise, and members of the subcommittee. Thank you for 
the opportunity to be here today with my interagency 
colleagues.
    On behalf of CDC, I want to extend our deepest sympathies 
for the loss of our Nation's esteemed Georgia Congressman and 
your colleague, John Lewis. Our Nation will remember him for 
his courage, his conviction, his patriotism, and his commitment 
to equity for all.
    CDC also remembers him as a fierce advocate for public 
health. Working together, we are positioned to honor his 
lifelong commitment to social justice by advancing health 
equity and mitigating the negative impacts of racism on public 
health in our Nation.
    The three of us here today are united in delivery of 
critical initiatives to stop the spread of COVID-19, to gain 
the upper hand on this pandemic in the United States, and to 
protect all Americans, while dedicating even greater attention 
to overcoming the health disparities experienced by populations 
at increased risk for this disease.
    We are seven months into this global pandemic, and it is 
with great humility that I share with you this is the most 
complex public health response this Nation has undertaken in 
more than a century.
    This virus is indiscriminate regarding whom and when it 
strikes. We continue to learn its characteristics, its 
behavior, and its effect on Americans across the socioeconomic 
spectrum. We are operating in a highly dynamic environment. We 
are adapting evidence-based strategies and pushing for 
innovative solutions to confront this unprecedented public 
health crisis.
    While I am optimistic and look forward to discussing the 
promise of the COVID-19 vaccine, I want to strongly emphasize 
that we are not defenseless now. We have powerful tools. And if 
all of us, not just some of us, but all of us embrace these 
tools, we will get a handle on this pandemic.
    I am appealing to all Americans to be part of the public 
health solution. Wearing a simple mask properly, it's critical 
to limiting the transmission. Be smart about social distancing 
and being in crowded spaces. Stay six feet apart from others if 
possible. And be vigilant about hand hygiene. Together, we can 
turn the tide of this pandemic.
    With emergency funding, CDC has distributed more than $12 
billion to the state, tribal, local, and territorial health 
departments to begin building the public health infrastructure 
this Nation needs--but, more importantly, that our Nation 
deserves. This system has been underinvested in for decades and 
needs to be put on a path for sustained funding now.
    Data monitorization is underway to ensure real-time actual 
data and data analytics and to include predictive data 
analysis. Public health labs are restructuring, instituting the 
necessary resilience to rapidly respond to emergencies. Public 
health talent is being hired to enhance lab capacity, deploy 
cutting-edge technology solutions, and conduct effective 
community-based contact tracing.
    A legion of public healthcare workers are deployed on the 
front lines of this pandemic and working 24/7 to protect the 
health and safety of Americans. CDC staff are on the ground in 
communities across the Nation supporting public health partners 
with an array of technical expertise.
    Our state and local partners are committed to advocating 
and educating about the needs to embrace public health 
strategies that best serve families in their communities, and 
essential workers, first responders and healthcare 
professionals are steadfast in their service, sacrifice, and 
commitment to save lives.
    Please take note and please tend to them as they are 
attending to us. We cannot afford to do it without them.
    As I recently told a group of CDC aspiring leaders this 
week, we are in the arena. We're dedicated and committed to 
doing our best. And I am confident that, united, we will emerge 
a better, stronger, and more resilient Nation.
    Adversity requires all of us pushing harder, thinking 
differently, being innovative, and perhaps most importantly, 
always seeing the possible of what we can accomplish when we 
unite and work together.
    This pandemic has challenged us with its persistence, its 
uncertainty, and its unpredictability. And yet I am confident 
that, together, we will prevail over this virus. But we must 
lead together in the best interests of our children, our 
grandchildren, our great-grandchildren, and our Nation's 
generations to come.
    Thank you, and I look forward to your questions.
    Chairman Clyburn. Thank you very much, Dr. Redfield.
    And thanks to all of you for your testimoneys. And as I 
said earlier, you submitted to us full testimony and they all 
are entered into the record.
    Now I will recognize myself for five minutes for questions.
    On January 31, 2020, exactly six months ago today, the 
Secretary of Health and Human Services declared the coronavirus 
outbreak, and I quote, ``a public health emergency for the 
entire United States.'' But rather than immediately bringing 
our Nation together to tackle the problem, the Trump 
administration downplayed the crisis, ignored scientific 
experts, and deferred to states and the private sector to lead 
the response.
    Dr. Fauci, on March 11 of this year you testified before 
the Oversight Committee, saying, and I quote, ``It's going to 
get worse.'' I regret to say you were right, it did get worse.
    On March 11, the country had confirmed just over 1,200 
cases and 31 deaths. Today, we have confirmed more than 4.4 
million cases, and we have just reached 150,000 deaths.
    There's a chart that I have up here. This chart compares 
the number of new daily coronavirus cases in the United States 
with those in Europe. It shows just how much worse the outbreak 
has been in the United States.
    Here is Europe, the line here, the European Union; here the 
United States. And here is where we were on the way. We started 
going up while the European countries, European Union, 
plateaued and has gone down.
    Dr. Fauci, can you help us understand why, while Europe has 
largely contained the virus, the United States has seen a 
continued rise in new cases?
    Dr. Fauci. Thank you very much, Mr. Chairman.
    The answer to that question is really somewhat complex, but 
I will try maybe to very briefly go through what I believe are 
at least some of the factors that were involved.
    If you look at what happened in Europe when they shut down 
or locked down or went to shelter in place, however you want to 
describe it, they really did it to the tune of about 95-plus 
percent of the country did that.
    When you actually look at what we did, even though we shut 
down, even though it created a great deal of difficulty, we 
really functionally shut down only about 50 percent in the 
sense of the totality of the country, which means when we 
reached our peak as they did, they came down almost to a low 
baseline as you have shown very clearly. But take a look at 
what happened to our baseline. We came up, down, and then we 
plateaued at about 20,000 cases a day.
    So, we started off with a very difficult baseline of 
transmission that was going on at the time that we tried to 
open up the country. And when we opened up the country, what we 
saw, particularly most recently in the southern states, was an 
increase of cases to 20, 30, 40, 50, and a couple of weeks ago 
it was up to 70,000 per day, and now it's down between 50 and 
60.
    The reasons for that are complex. There were some states 
that did it very well, and there were some states that did not. 
And when I say ``did not,'' I mean, you know, we put out, as 
Ranking Member Scalise mentioned, the guidelines of a gateway 
Phase 1, Phase 2, Phase 3. Some were followed very carefully 
and some were not. In those situations in which you were not, 
that led to the surging that you are showing on your chart 
there.
    And one of the reasons is not doing some of the things that 
Dr. Redfield mentioned in his opening statement: universal 
wearing of masks, avoiding crowds, physical distancing, et 
cetera, et cetera.
    So, it's a complicated reason why those charts are that 
way. And, hopefully, as we're going forward, we can turn those 
around, and I do believe we can, Mr. Chairman, by doing some of 
the fundamental things that we're talking about, five easy 
things to do that were mentioned by Dr. Redfield.
    Thank you.
    Chairman Clyburn. Thank you very much, sir.
    At the risk of going over my time, because the vote is on, 
what I am going to do is yield to you, Mr. Ranking Member, for 
five minutes. When Ms. Waters gets back, I will let her get in 
the chair so we can go vote.
    Mr. Scalise. Thank you, Mr. Chairman.
    And, again, I appreciate all of you being here.
    I know when we talk about President Trump's team that he 
has been relying on to help put together this plan, and, like I 
said, this is just a small part of the plan, there are 
thousands and thousands of more pages online of various aspects 
of President Trump's plan to combat the coronavirus.
    But we have, of course, Dr. Fauci, Dr. Giroir, Dr. 
Redfield, we see Dr. Birx. There's a whole array of doctors, 
medical experts, best in the world, that are helping work with 
President Trump to develop this plan.
    Is that correct? If I could ask any of you all. Is that 
correct?
    By the way, were any of you sidelined from coming here? I 
know some people try to use that term. I haven't heard of 
anybody sidelined. But if any of you were sidelined, please 
share it, because I haven't seen it. Good to see all of you 
here.
    Dr. Fauci, let me ask you about some of the decisions that 
you worked with President Trump on and the whole team did. I 
know when you go back to the beginning of this, the China ban 
was very heavily discussed. Were you involved in working with 
President Trump on deciding to ban flights from China?
    Dr. Fauci. Yes, sir, I was.
    Mr. Scalise. Do you agree with that decision?
    Dr. Fauci. I do.
    Mr. Scalise. Do you think that decision saved lives, Dr. 
Fauci?
    Dr. Fauci. Yes, I do.
    Mr. Scalise. Do you agree with the decision, when 
ultimately we saw spread in Europe and then the President 
recommended that we extend that to Europe, did you participate 
in that discussion?
    Dr. Fauci. I was actively involved in that discussion, sir.
    Mr. Scalise. Do you agree with that decision?
    Dr. Fauci. Yes, I do.
    Mr. Scalise. Do you think that decision saved lives?
    Dr. Fauci. Yes, I do.
    Mr. Scalise. Eventually, then, we saw the United Kingdom 
have an outbreak, and there had to be a tough decision made, do 
we extend that to the United Kingdom? Were you part of that 
decision?
    Dr. Fauci. I was.
    Mr. Scalise. And do you agree with that decision as well?
    Dr. Fauci. I do.
    Mr. Scalise. Did that decision save lives?
    Dr. Fauci. Yes, it did.
    Mr. Scalise. When you look at the 15 days to slow the 
spread, initially it started at 15, were you part of the 
decision to implement that decision?
    Dr. Fauci. I was very much involved in that.
    Mr. Scalise. Did that decision save lives, Dr. Fauci?
    Dr. Fauci. I believe it did.
    Mr. Scalise. Then when President Trump met with you and Dr. 
Birx to extend that another 30 days, do you agree with that 
decision that President Trump made to extend that?
    Dr. Fauci. Yes, I was very much involved, and I agree with 
it.
    Mr. Scalise. Did that decision save lives, Dr. Fauci?
    Dr. Fauci. I believe it did.
    Mr. Scalise. So, I know we've heard a lot about 
disagreements. Clearly, there were many decisions made. In 
fact, there are many very respected international doctors that 
are involved in each of those decisions. Is that correct?
    Mr. Fauci. Yes.
    Mr. Scalise. By and large, would you say that you and 
President Trump have been in agreement on most of those 
decisions?
    Mr. Fauci. We were in agreement on virtually all of those.
    Mr. Scalise. I appreciate that.
    Now I want to ask you, Dr. Giroir, Admiral Giroir, on the 
testing that you have been involved in to help carry out parts 
of President Trump's plan. You just talked about over a million 
testing machines, 15-minute machines, that will be brought into 
nursing homes across this country. I know ultimately it's going 
to be 15,000--I'm sorry, over a thousand machines that are 
going to be delivered already.
    Is that plan in place and moving forward based on President 
Trump's guidance?
    Mr. Giroir. It is.
    Mr. Scalise. And that money in part was taken from the 
CARES Act, the bill that we worked with President Trump to pass 
in a bipartisan way through this Congress. Is that correct?
    Mr. Giroir. Yes, sir, that's correct.
    Mr. Scalise. And I've heard specifically from nursing home 
directors who have hold me that this decision will save more 
lives in nursing homes. Have you heard the same?
    Mr. Giroir. There is no question. I don't think any single 
decision has had more positive feedback than that one.
    Mr. Scalise. And I know early on CMS put out guidelines 
back in March. These were just part of the many guidelines that 
CMS put out on guidance to prevent COVID spread in nursing 
homes. We know that 45 Governors followed this guidance.
    Five Governors did not follow this guidance. And we saw in 
those states tens of thousands of seniors in nursing homes died 
who shouldn't have died.
    If this guidance was followed by those Governors, do you 
think they would have saved more lives?
    Mr. Giroir. As I have testified here before, I think it's a 
very concerning practice to send an infectious person back to a 
nursing home.
    Mr. Scalise. Well, thank you. And I wish those Governors 
would have followed the guidance that President Trump's team 
put out as part of a major overall plan.
    Now, Dr. Redfield, I want to talk to you about reopening 
schools. I know you have been very involved in this. CDC has 
put out multiple documents of guidance for safely reopening 
schools. Here, checklist for parents, checklist for teachers, 
guidance for K through 12 school administrators on the use of 
cloth face masks in schools.
    I know some people want to make that controversial. This is 
part of President Trump's plan, part of his plan to safely 
reopening school, talked about the use of masks.
    Here you have got school decisionmaking tool for parents, 
caregivers, and guardians.
    Are these all parts of the President's plan to safely 
reopen schools?
    Dr. Redfield. Yes.
    Mr. Scalise. Have you been involved in developing that with 
President Trump?
    Dr. Redfield. Yes.
    Mr. Scalise. Do you think that schools should safely reopen 
this fall with in-person learning?
    Dr. Redfield. Yes. I think it's important to realize that 
it's in the public health best interest of K through 12 
students to get back in face-to-face learning. There's really 
very significant public health consequences of the school 
closure.
    Mr. Scalise. Well, for example, they lack the ability to 
detect child abuse that occurs and is detected often in 
schools. Do you know how much child abuse will not be detected 
if children aren't returning to the school?
    Dr. Redfield. Clearly we're seeing less reporting of it, 
and, again, I think it's a direct consequence of the school 
closures. 7.1 million kids get their mental health service at 
schools. They get nutritional support, as we mentioned, from 
schools. We're seeing an increase in drug use disorder, as well 
as suicide in the adolescent individuals.
    So, I do think it's really important to realize it's not 
public health versus the economy about school opening. It's 
public health versus public health of the K through 12 to get 
these schools open. We have got to do it safely, and we have 
got to be able to accommodate----
    Mr. Scalise. Well, I appreciate that, and I know we're out 
of time. I hope that these school systems follow President 
Trump and these great medical doctors' guidance and help those 
kids by safely reopening.
    With that, I thank our witnesses.
    And, Mr. Chairman, I yield back.
    Chairman Clyburn. I thank you the Ranking Member.
    The chair now recognizes Mrs. Maloney for five minutes.
    Mrs. Maloney. Thank you, Mr. Chairman.
    And thank you, Mr. Ranking Member.
    And I want to thank all of our witnesses today, 
particularly Dr. Fauci, who was born in the great city of New 
York, in the beautiful borough of Brooklyn.
    New Yorkers are very proud that you were a New York-raised, 
a New York doctor before you became America's doctor.
    And I must say that, as the chairman mentioned, when we had 
our hearing on March 11, which I was privileged to chair, when 
I asked you how is it going to go, you said it's going to get 
worse and worse and worse. The next day everybody started 
closing down, sports clubs, museums, and treating it with the 
seriousness the disease had to be treated with.
    And at that hearing, when asked about testing, you said, 
and I quote, ``that we're not really geared up to do what we 
need right now.'' In fact, you said--and you called it failing.
    Now it's five months later. Where would you rate us now in 
our efforts? I know my city and other cities have worked 
diligently trying to respond. Where would you put us now with 
testing? What do we have to do to continue to get better?
    Dr. Fauci. Well, I think you can get a more detailed 
response from Admiral Giroir, but I'll comment.
    I think that things are considerably different and improved 
now than it was several months ago, both for the numbers of 
tests that have been improved, as well as for the efforts that 
are going into to expand our capability; in other words, to 
more prudently have screening testing done in one segment, as 
well as testing to determine diagnosis and followup on others.
    But Dr. Giroir is much better qualified to give you the 
details of that.
    Mrs. Maloney. But I would like to now move to vaccines. 
That's the challenge now. And I recall reading one of your 
reports on AIDS, and you said: I will never retire until we 
have a vaccine. We still don't have a vaccine for AIDS. Ebola 
took five years.
    How realistic is a vaccine? Is it dreaming, or is it a 
reality? Are the protocols as safe as they possibly could be, 
as we've always had for vaccines? Could you give us an honest 
assessment of where our country is in vaccine development?
    Dr. Fauci. Yes, it's reality, Congresswoman Maloney. I 
believe it will occur. I think the difference between HIV and 
coronavirus is so different that I don't think you can compare 
them because the body does not make a very good immune response 
against HIV, so it made vaccine development very difficult. 
Whereas the body does make a robust immune response against 
coronavirus, which tells us that I believe that we can get to 
that goal.
    I know to some people this seems like it is so fast that 
there might be compromising of safety and in scientific 
integrity, and I can tell you that is absolutely not the case.
    The rapidity with which we're doing it is as a result of 
very different technologies, in getting from the time we 
recognized this pathogen in the beginning of January, to the 
time we were able to get into a Phase 1 trial, to the time we 
were able to do Phase 2, and then, as I mentioned, just this 
past Monday we started a Phase 3.
    That was not reckless rushing. That was technology and 
doing things in a way that does not compromise any of the 
steps.
    So, I believe it is realistic, as I mentioned in my opening 
statement, that the early data from the Phase 1 trial shows 
that this candidate--and I am sure other candidates will do it 
also. This is not the only vaccine. There are more than one. 
There are about a dozen, five or six that the Federal 
Government is actively involved with, is going into Phase 3 
trials over the next few months, as I mentioned, one of which 
is already in.
    The response that was induced was really quite favorable. 
And as I've said often, and I will repeat it for the record 
now, there's never a guarantee that you are going to get a safe 
and effective vaccine. But from everything we've seen now, in 
the animal data as well as the early human data, we feel 
cautiously optimistic that we will have a vaccine by the end of 
this year and as we go into 2021.
    So, I don't think it's dreaming, Congresswoman. I believe 
it's a reality and will be shown to be a reality.
    Mrs. Maloney. That's very good news.
    The second step is, how do we distribute it?
    And also, reports are that China and Russia are involved in 
their tests and that they have advanced tests across the world. 
They are testing in Brazil, Indonesia for their vaccines.
    Should they develop one earlier, would we manufacture it 
here?
    When we develop it, how do we plan to distribute it?
    We also have to think about the world, because if we don't 
cure it in the world, then we haven't cured it, too.
    Dr. Fauci. Right.
    Mrs. Maloney. So, the steps forward after the vaccine is 
developed.
    Dr. Fauci. Sure. There's a couple of questions there. I 
will try to answer them quickly, Congresswoman.
    So, the first thing is I do hope that the Chinese and the 
Russians are actually testing the vaccine before they're 
administering the vaccine to anyone, because claims of having a 
vaccine ready to distribute before you do testing I think is 
problematic at best.
    We are going very quickly. I do not believe that there will 
be vaccines so far ahead of us that we will have to depend on 
other countries to get us vaccines. I believe the program that 
is being sponsored by us right now and being directed and 
implemented by us is going at a very rapid speed, prudent but 
rapid.
    Now, with regard to distribution, already right now there 
are plans, as was mentioned, I believe, by Ranking Member 
Scalise, that we're taking at risk, financial risk, not safety 
risk but financial risk, the development of doses of vaccine 
right now, as we speak, so that they will be ready by the time 
we do show safety and efficacy, we will be able to distribute 
it.
    And it will be done by a number of mechanisms. The standard 
mechanism, working with the recommendation by the ACIP, 
together with the CDC, now being complemented by 
recommendations from the National Academy of Medicine, and in 
collaboration with the Department of Defense and the CDC 
working together. It will be distributed.
    Mrs. Maloney. Thank you. My time has expired.
    Chairman Clyburn. Thank you very much, Dr. Fauci.
    The chair now recognizes Mrs. Walorski for five minutes.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service. Thank you for being 
here today.
    I think that, arguably, the most important thing the 
Federal Government is working on right now is ensuring--and I'm 
an optimist, and listening to you this morning, I'm still 
optimistic that we're going to use the term ``when'' and not 
``if'' when it comes to getting a vaccine, shown through trials 
to be safe and effective, that we have manufacturing and 
distribution capabilities to go and get it across the Nation 
quickly. I believe that.
    President Trump has already announced Operation Warp Speed 
to achieve the goal of delivering 300 million doses of an 
approved vaccine by January 2021. It's leveraging the full 
strength of the public and private sectors. The partnerships 
that are there and becoming partnerships is unprecedented in 
this country, and I salute that.
    AstraZeneca told the Energy and Commerce Committee a few 
days ago that this deal with the Federal Government stipulates 
that it will sell 300 million doses to the government at no 
profit. Johnson & Johnson similarly said it will provide its 
vaccine at a not-for-profit price. Other companies working on 
vaccines have also promised low prices.
    Dr. Fauci, between the promises for low prices and existing 
government programs that cover the cost of a vaccine, is it 
safe to say that every American will be able to get a vaccine 
once it's approved?
    Dr. Fauci. Given what you've mentioned, which I agree with, 
the promises of the company about hundreds of millions of 
doses, I believe ultimately, over a period of time in 2021, if 
we have--and I think we will have--a safe and effective 
vaccine, that Americans will be able to get it.
    I don't think that we will have everybody getting it 
immediately in the beginning. It probably will be phased in. 
And that's the reason why we have the committees to do the 
prioritization of who should get it first.
    But ultimately, within a reasonable period of time, the 
plans now allow for any American who needs a vaccine to get it 
within the year 2021.
    Mrs. Walorski. Right. And that is the plan.
    Dr. Fauci. Right.
    Mrs. Walorski. Staying on the topic of vaccines, Dr. Fauci, 
it's my understanding that Operation Warp Speed enabled 
clinical trials for the most promising vaccine candidates to be 
run simultaneously, which will get a vaccine to the market much 
faster than normal.
    My understanding from listening to you just a few minutes 
ago, we have eliminated no safety steps in the vaccine approval 
process, correct?
    Dr. Fauci. That is correct.
    Mrs. Walorski. Correct?
    Dr. Fauci. That is correct.
    Mrs. Walorski. Again, just to be clear, so the folks that 
are watching this are hearing this clearly, concisely, and 
truthfully from you: The FDA is not compromising safety 
standards in order to speed up the vaccine process approval, 
correct?
    Dr. Fauci. Well, I would say it a different way.
    Mrs. Walorski. OK.
    Dr. Fauci. We at the NIH are doing the vaccine studies with 
the companies. The FDA will look at that data and, on a 
science-based decision, will make a determination as to the 
safety and efficacy and whether or not it will be approved. So, 
the FDA is a science-based decisionmaker. We do the----
    Mrs. Walorski. But as far as you know in that--I agree--the 
FDA is not compromising safety standards.
    Dr. Fauci. No.
    Mrs. Walorski. No way, no how. No way, no how is the FDA 
compromising safety standards.
    Dr. Fauci. No.
    Mrs. Walorski. And their answers and their approvals are 
based on science.
    Dr. Fauci. Yes. Historically, the FDA has based their 
decisions on science. They will do it this time also, I'm 
certain.
    Mrs. Walorski. I appreciate it. Thanks for your assurances 
that we'll have a safe, affordable, and widely available 
vaccine for the American people.
    All of America is praying that one of these promising 
candidates comes through. That's why I'm so disappointed that 
we've seen some on the other side of the aisle speculate aloud 
that the administration might rush an unsafe vaccine to the 
market before the election to help President Trump politically.
    This irresponsible rhetoric only serves to plant irrational 
fears in the minds of Americans. I'm worried that enough of 
these types of attacks could result in people avoiding an 
approved vaccine when it does come to market, when it is 
available for Americans.
    Dr. Fauci, can you address this once and for all? Would the 
administration approve a vaccine that's not safe? And do you 
share my concern about the danger of undermining faith in the 
vaccine development process?
    Dr. Fauci. The Commissioner of FDA, Dr. Stephen Hahn, has 
assured me and has spoken publicly that he would make sure any 
decision on the part of the FDA will be based on sound 
scientific data proving the safety and the efficacy. He's told 
me that, and he's been very public about that.
    Given that, I think the American public should be assured 
that in the process of determining the safety and efficacy the 
proper steps have been taken to determine that, and when a 
vaccine becomes available it's important for their own health 
and for the health of the country to take that vaccine.
    Mrs. Walorski. I appreciate that.
    Thank you, gentlemen.
    I can't let this moment pass without bringing to all of our 
attention, again, and to the chairman, that just last week the 
Justice Department indicted two Chinese nationals for hacking 
companies that are working on a vaccine. We sent a strong 
message to China this will not be tolerated.
    I'm glad the administration took action by naming and 
shaming those involved, as well as closing down a Chinese 
consulate that was a hub for intellectual property and trade 
secret theft.
    We must hold China accountable, Mr. Chairman. We have to.
    Mr. Chairman, before I close, can you commit to holding a 
hearing on the threat of Chinese espionage on vaccine 
products--vaccine producers? Mr. Chairman, whoever is sitting 
in for Mr. Chairman?
    Ms. Waters.
    [Presiding] The chairman----
    Mrs. Walorski. Will you promise me that we will hold a 
hearing on the threat of Chinese espionage on vaccine 
producers?
    Ms. Waters. The chairman is not here to answer the 
question. You have a few seconds left. Your time has expired.
    Mrs. Walorski. Mr. Chairman, this is a grave threat. For 
the record----
    Ms. Waters. Thank you.
    Mrs. Walorski. Mr. Chairman, this is a grave threat to our 
country and the world of China's hacking our companies.
    Ms. Waters. The lady's time has expired.
    Mrs. Walorski. I seriously hope the chairman will take my 
recommendation. I yield back.
    Ms. Waters. Thank you very much.
    I will now recognize myself for five minutes.
    On July 10, the Trump administration ordered hospitals to 
change how they reported hospitalization rates, testing 
numbers, and other data related to the coronavirus.
    Instead of reporting to the CDC, which hospitals have done 
for more than a decade, they were instructed to start reporting 
the data to the Trump administration directly; specifically, 
the Department of Health and Human Services. They were given 
just two days to prepare for this drastic change.
    Leading health groups warned that the changes in data 
reporting will, quote, ``worsen our ability to mitigate, 
suppress, and recover from our national public health 
emergency,'' unquote.
    Other experts are concerned that this decision may have 
been made so the Trump administration could control and hide 
data it finds politically inconvenient.
    Dr. Redfield, when did you first learn that the 
administration planned to move the data from CDC to a different 
portal run by HHS?
    Dr. Redfield. Well, Congresswoman, we weren't directly 
involved in the final decision. But what I can say is that CDC, 
then and now, continues to have access to all data, does all 
data analytics. So, there is no restriction of any of the data, 
and that data we continue to forward face to the American 
public.
    Ms. Waters. Dr. Redfield, when did you first learn? When 
were you first told?
    Dr. Redfield. Again----
    Ms. Waters. When were you first notified?
    Dr. Redfield. Again, as I mentioned, I wasn't involved in 
the decision.
    Ms. Waters. So, you were never----
    Dr. Redfield. I don't remember the exact date.
    Ms. Waters. Am I to understand--reclaiming my time.
    Dr. Redfield. I don't remember the exact date.
    Ms. Waters. Am I to understand that you were not told at 
all?
    Dr. Redfield. Well, I was told actually once the 
Secretary's office made the decision that that was the 
decision, and we worked together----
    Ms. Waters. So, how long was that?
    Dr. Redfield. I don't remember, but I can get back to you 
the exact date.
    Ms. Waters. OK.
    Dr. Redfield. But we can work in cooperation----
    Ms. Waters. All right.
    Dr. Redfield [continuing]. To help make sure that this was 
done in an effective way.
    Ms. Waters. Reclaiming my time.
    Did you agree with this decision, Dr. Redfield?
    Dr. Redfield. Again, I think it was an important decision 
in light of----
    Ms. Waters. Did you agree with the decision?
    Dr. Redfield. Yes. I said it's an important decision----
    Ms. Waters. Thank you.
    Did you discuss this change with Vice President Pence or 
with Secretary Azar?
    Dr. Redfield. Not directly.
    Ms. Waters. Indirectly?
    Dr. Redfield. I talked directly with the individuals 
responsible within the Secretary's office.
    Ms. Waters. So, did you discuss it with Vice President 
Pence?
    Dr. Redfield. No.
    Ms. Waters. Did you discuss it with Secretary Azar?
    Dr. Redfield. No.
    Ms. Waters. Who told you about the reasons for this change?
    Dr. Redfield. Well, I think we collectively understood the 
reasons--if I can answer--is there were substantial 
advancements in therapeutics with Remdesivir, which made it 
really important to be able to understand who was newly 
hospitalized in real time that day so allocations of Remdesivir 
could get to that hospital----
    Ms. Waters. I thank you very much for that.
    So, you developed the reasons, no one dictated the reasons 
or told you the reasons for the change? You came up with the 
reasons?
    Dr. Redfield. Congresswoman, yes. I think it was important 
that we were able to, in real time, be able to know where 
Remdesivir needed to go. And the system that we had developed, 
the National Healthcare Safety Network, that we do for----
    Ms. Waters. So, were you told about the changes, why they 
were being done, or did you and others develop the changes? Who 
told you----
    Dr. Redfield. We work together cooperative----
    Ms. Waters [continuing]. About the changes?
    Dr. Redfield. We work cooperatively together, members of 
HHS and CDC, in recognizing the importance of these changes.
    Ms. Waters. OK. I only have so much time.
    The Trump administration has threatened to cutoff the 
supplies of Remdesivir to hospitals that do not follow the new 
reporting mandates.
    Dr. Redfield, this is the only drug known to successfully 
treat the coronavirus. Should a patient be denied access to a 
potentially life-saving drug like Remdesivir because a hospital 
was unable to comply with the sudden change in HHS reporting 
requirements?
    Dr. Redfield. My understanding is we continue to do 
everything to make sure Remdesivir gets to all patients that 
would potentially benefit from it.
    Ms. Waters. But you do agree that they may not be able to 
get them to patients because of the way that the information 
was given and the timeframe that it was given in?
    Dr. Redfield. Congresswoman, I would disagree. I think the 
reason the changes were made was to ensure that individuals 
could get access to Remdesivir in a timely fashion.
    Ms. Waters. Would you agree that we basically--well, this 
is the only drug known to successfully treat the coronavirus. 
Should a patient be denied access to a potentially life-saving 
drug like Remdesivir because a hospital was unable to comply 
with the sudden change in HHS reporting requirements?
    Dr. Redfield. And, again, I'm trying to say I think the 
intent and the consequence of what was done was to ensure that 
patients aren't denied access to Remdesivir, to make sure we 
get timely distribution to the hospitals where these patients 
are.
    Ms. Waters. Thank you very much. I've exhausted my time.
    Next, we will hear from Mr. Foster, I believe.
    Mr. Luetkemeyer is next?
    Thank you. You are recognized for five minutes, Mr. 
Luetkemeyer.
    Mr. Luetkemeyer. Thank you.
    And thank the witnesses for being here today. I appreciate 
your testimony and your expertise.
    Dr. Redfield, on Tuesday, July the 14, you stated that, 
right now, ``We're seeing, sadly, far greater suicides than we 
are deaths from COVID. We're seeing far greater deaths from 
drug overdose that are above excess that we had as background 
than we are seeing deaths from COVID.''
    Since the pandemic began, alcohol sales have increased by 
more than 25 percent, and suspected drug overdoses have climbed 
18 percent.
    I've said this almost every hearing: We need to make sure 
we're looking at both sides of this healthcare issue. We're 
targeting our approach right now to take care of those with 
COVID, but we also need to make sure that we're looking at the 
severe unintended consequences, like substance abuse, domestic 
violence, child abuse, that are occurring due to the economic 
shutdowns that took place across the country, because these 
instances will likely be around far longer than the virus 
itself.
    So, Dr. Redfield, do you believe that the blanket shutdowns 
happening throughout the country are contributing to the 
drastic increases in substance abuse and suicides, the lack of 
cancer screenings and treatments and operations and other 
things like that that we've sort of left out of the picture 
here as a result of our total focus on COVID?
    Dr. Redfield. Congressman, I thank you for the question.
    I think it is really important as we reopen America now 
that we're much more surgical about those situations that are 
curtailed.
    So, as you mentioned, there clearly are consequences for 
the decrease in immunization in children. There were clearly 
consequences for the lack of cancer screening. There clearly 
were consequences for delayed surgeries that were elective that 
now are semi-elective. There clearly are consequences, 
substance abuse and mental health services.
    So, it really is important as we reopen our Nation that we 
really ensure that there are not these unintended consequences 
that I think the reality is did occur during March, April, and 
May.
    MR. Luetkemeyer. You know, there was an article that 
appeared in one of the local magazines with regards to trying 
to quantify that figure, and they did, and they came up with a 
figure of around 65,000 people per month that were dying 
because of the lack of healthcare that was either being 
postponed, denied, waived, whatever, versus our total focus on 
COVID.
    Dr. Fauci, I have watched a number of your press 
conferences, and I have seen you articulate a lot about COVID, 
but I've never seen you talk about this other part of the 
healthcare spectrum that we need to be considering also.
    Would you like to comment on that and give me your position 
on that, please?
    Dr. Fauci. Yes. I actually have commented on that when I've 
said, most recently talking about schools, that I think that a 
default position, despite the fact that we have to have 
flexibility, would be to try, as best as we possibly can in the 
context of the safety of the children and the teachers, to open 
the schools for the very reasons that I think you mentioned and 
that Dr. Redfield mentioned, because of the negative 
consequences on children from a psychological standpoint as 
well as the downstream unintended consequences on families.
    Mr. Luetkemeyer. You know, one of the things--one of the 
problems that we all have here on this committee is we're 
sitting here looking at the consequences of a problem that we 
have with COVID, we're looking at the consequences we have on 
not attending to the healthcare needs of the rest of society, 
and we have to sit here and figure out: How do we manage this? 
How do we look at both sides of this? How do we, from 30,000 
feet, make sure everybody is taken care of?
    In our position, what would you recommend, Dr. Redfield, on 
how we should approach this problem?
    Dr. Redfield. Again, I just want to echo what Dr. Fauci 
said earlier. We think that, if you do five things, we can 
accomplish as much as we did shutting down this Nation. Wear a 
face covering----
    Mr. Luetkemeyer. All those things will be able to put us 
back----
    Dr. Redfield. We can put us back.
    Mr. Luetkemeyer [continuing]. And we can address the other 
part of this as well, then?
    Dr. Redfield. We can get back without these unintended 
consequences. The face masks, the social distancing, the hand 
hygiene, staying smart about gatherings, and staying out of 
crowded bars and crowded restaurants.
    If we did those five things--we've done modeling data--we'd 
get the same bang for the buck as if we just shut the entire 
economy down.
    Mr. Luetkemeyer. OK. Now, you've commented quite a bit this 
morning already on the school openings, and your comment was 
it's not about the economy or public health, it's about public 
health versus public health.
    I've got some grandkids, and I want them to go back to 
school. I think, for their own health, we need to be doing 
that. I think you've made the comment you have grandchildren, 
you'd like to see that happen as well.
    Would you like to comment on the other part of this, again, 
the unintended consequences of the problems with child abuse 
that's not being reported? Because most of it--a lot of it is 
reported by teachers. We've seen that go down. We've seen 
emergency cases in emergency rooms go up as a result of this. 
Can you comment on some of that, please?
    Dr. Redfield. Congressman, thank you. I just want to 
reemphasize, because I don't think I can emphasize it enough, 
as the Director of the Centers for Disease Control, the leading 
public health agency in the world, it is in the public health 
interest of these K through 12 students to get these schools 
back open for face-to-face learning.
    Mental health service, 7.1 million kids get it in school. 
Nutrition we talked about. Reporting of child abuse, sexual 
abuse, mandatory in schools. The isolation that these 
adolescents are feeling that now is associated with increased, 
as you mentioned, increased drug overdose deaths, and now 
increased suicides.
    I think it is really important. As a grandfather, 11 
grandkids, I want these kids back in school. I have one 
grandchild with cystic fibrosis. I want it done smartly, right? 
But I think we have to be honest that the public health 
interests of the students in this Nation right now is to get a 
quality education in face-to-face learning, and we need to get 
on with it.
    Mr. Luetkemeyer. And one of the words I always use----
    Chairman Clyburn. Thank you. The gentleman's time has 
expired.
    The chair now recognizes for five minutes Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman and Ranking Member.
    Gentlemen, it has been six months since this crisis began. 
Yet new infections are still climbing in many states, many 
hospitals are at capacity, and thousands of Americans are 
dying.
    I am concerned about widespread delays in test results are 
contributing to this problem.
    In Arizona, the test positivity rate is over 20 percent, 
but test results there have been delayed by up to 16 days.
    In Florida, many hospitals in the state are near or at 
capacity, but results can take over a week.
    In Georgia, some companies have reported average processing 
times of five to ten days.
    Dr. Fauci, you said in a recent interview, and I quote, 
``If you're going to do contact tracing and the test comes back 
in five to seven days, you might as well not do contact 
tracing, because it's already too late.''
    Dr. Fauci, if a five-day testing delay is too long, then is 
it fair to say that a 16-day delay is absurd? What are the 
consequences from these delays?
    Dr. Fauci. I believe you can get a more detailed answer 
from Admiral Giroir. But as I said before, that is a delay that 
would interfere with the effective contact tracing, and we're 
trying to decrease that.
    But the exact numbers of the delay, I believe that Admiral 
Giroir has more precise information on that.
    Ms. Velazquez. Yes, sir, Admiral? What are the consequences 
from these delays?
    Mr. Giroir. Yes. Thank you, ma'am.
    So, as I talked about, about half the tests are done either 
at point-of-care or within hospitals, which are pretty rapid.
    The current data we have from the large commercial labs are 
that 59 percent of all tests are reported within three days, 76 
percent within five days. And I am sure there is an outlier at 
12 to 16 days, because that happens, but that's very atypical. 
And in the cities you talked about----
    Ms. Velazquez. Sir, that is not what we are hearing from 
places like Arizona, Florida, and Georgia.
    Mr. Giroir. So, I get the data every single morning from 
every single state and can tell you specifically what that is. 
And we have surged testing. We have brought Federal resources 
to massively surge in Phoenix, and that's why it's totally 
going down; in Miami, totally going down; Jacksonville.
    Ms. Velazquez. Reclaiming my time.
    Dr. Redfield, I would like to turn to you. Does the CDC 
have comprehensive information about the wait times for test 
results in all 50 states?
    Dr. Redfield. I didn't quite hear you. I'm sorry.
    Ms. Velazquez. Does the CDC have comprehensive information 
about the wait times for test results in all 50 states?
    Dr. Redfield. I would refer that question back to the 
Admiral.
    Ms. Velazquez. Sir?
    Mr. Giroir. Yes. We have comprehensive information on wait 
times in all 50 states from the large commercial labs.
    Ms. Velazquez. And do you publish this data?
    Mr. Giroir. We talk about it whenever--always. I mean, I 
was on----
    Ms. Velazquez. And you don't think that it would be 
important----
    Mr. Giroir. I was with 69 journalists yesterday, and we 
talk about that frequently. So, if you would like to see that, 
I'm very happy to do that.
    Ms. Velazquez. Well, it would be great so that those that 
are making decisions at the state and city level, we have 
access to that information----
    Mr. Giroir. They do.
    Ms. Velazquez [continuing]. Because it is important to 
understand the trend.
    Mr. Giroir. They do. They have that information. In fact, 
from the commercial labs, when they place an order, they're 
told exactly what the expected wait time is for that order.
    Ms. Velazquez. So, we cannot expect to reopen the economy 
safely if the virus is spreading unchecked. Testing, contact 
tracing, and isolation will be not be effective unless we cut 
the turnaround time for tests. And I don't want to talk about 
Puerto Rico. That's another story.
    Chairman Powell said this week that the path of the economy 
is going to depend to a very high extent on the course of the 
virus and on the measures that we take to keep it in check. He 
said also that the Fed will use its full range of tools to 
steer the economy out of recession.
    Gentlemen, is the Federal Government using its full range 
of tools to get the virus under control like other countries 
have? Many states are reconsidering their reopening plans after 
experiencing a shocking increase in new cases and being unable 
to stop the spread.
    Dr. Fauci, what roles does the lack of sufficient testing 
and contact tracing play in states' inability to control the 
virus?
    Dr. Fauci. Testing and contact tracing is one of a number 
of tools that I used to control the kind of surging we've seen.
    But I would also like to point out, Congresswoman 
Velazquez, to reemphasize again what I said in my opening 
statement, that we could do a really good job of controlling it 
if we paid attention to five fundamental principles, one of 
which is what we're doing here----
    Ms. Velazquez. Right.
    Dr. Fauci [continuing]. With masks, crowds, distance, bars, 
washing hands. That is critical. Testing is absolutely an 
important part of it, an important part of----
    Ms. Velazquez. I understand that. But the largest and most 
important pulpit is the one on Pennsylvania Avenue. It doesn't 
matter what you say if you what you said is undermined by the 
President of the United States.
    Chairman Clyburn. The gentlelady's time has expired.
    The chair now recognizes for five minutes Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Dr. Fauci, do protests increase the spread of the virus?
    Dr. Fauci. Do protests increase the spread of the virus? I 
think I can make a general statement----
    Mr. Jordan. Well, half a million protesters on June 6 
alone.
    Dr. Fauci. Yes.
    Mr. Jordan. I'm just asking, that number of people----
    Dr. Fauci. Yes.
    Mr. Jordan [continuing]. Does it increase the spread of the 
virus?
    Dr. Fauci. Crowding together, particularly when you're not 
wearing a mask, contributes to the spread of the virus.
    Mr. Jordan. Should we limit the protesting?
    Dr. Fauci. I'm not sure what you mean. Should--how do we 
say limit the protesting?
    Mr. Jordan. Should government limit the protesting?
    Dr. Fauci. I don't think that's relevant to----
    Mr. Jordan. Well, you just said if it increases the spread 
of the virus. I'm just asking, should we limit it?
    Dr. Fauci. Well, I'm not in a position to determine what 
the government can do in a forceful way.
    Mr. Jordan. Well, you make all kinds of recommendations. 
You've made comments on dating, on baseball, on everything you 
can imagine. I'm just asking--you just said----
    Dr. Fauci. Yes.
    Mr. Jordan [continuing]. That protests increase the spread. 
I'm just asking, should we try to limit the protests?
    Dr. Fauci. No, I think I would leave that to people who 
have more of a position to do that. I can tell you that----
    Mr. Jordan. Government is stopping people from going to 
church, Dr. Fauci.
    Dr. Fauci. Yes.
    Mr. Jordan. Last week, in the Calvary Chapel case, five 
liberals on the Supreme Court said it was OK for Nevada to 
limit church services. I mean, Justice Gorsuch said it best. He 
said there is no world in which the Constitution permits Nevada 
to favor Caesar's Palace over Calvary Chapel. I'm just asking, 
is there a world where the Constitution says you can favor one 
First Amendment liberty, protesting----
    Dr. Fauci. Right.
    Mr. Jordan [continuing]. Over another, practicing your 
faith?
    Dr. Fauci. I'm not favoring anybody over anybody. I'm just 
making a statement that's a broad statement that avoid crowds 
of any type, no matter where you are, because that leads to the 
acquisition and transmission.
    And I don't judge one crowd versus another crowd. When 
you're in a crowd, particularly if you're not wearing a mask, 
that induces the spread.
    Mr. Jordan. But it's a simple question, Doctor. Should we 
limit the protests? Government is obviously limiting people 
going to church.
    Dr. Fauci. Yes.
    Mr. Jordan. And, look----
    Dr. Fauci. I'm not----
    Mr. Jordan [continuing]. There has been no violence that I 
can see at church. I haven't seen people during a church 
service go out and harm police officers or burn buildings. But 
we know that--I mean, for 63 days, nine weeks, it's been 
happening in Portland.
    Dr. Fauci. Right. Yes.
    Mr. Jordan. One night in Chicago, 49 officers were injured. 
But no limit to--no limits to protests, but, boy, you can't go 
to church on Sunday.
    Dr. Fauci. I don't know how many times I can answer that. I 
am not going to opine on limiting anything. I'm just going to 
tell you----
    Mr. Jordan. You've opined on a lot of things, Dr. Fauci.
    Dr. Fauci. Yes, but I've never said----
    Mr. Jordan. This is something that directly impacts the 
spread of the virus, and I'm asking your position on the 
protests.
    Dr. Fauci. Yes. I'm--well, I'm not going to opine on 
limiting anything. I'm telling what you it is, the danger. And 
you can make your own conclusion about that. You should stay 
away from crowds, no matter where the crowds are.
    Mr. Jordan. Government has stopped people from going to 
work. In fact, just in New Jersey, four days ago, Ian Smith and 
Frank Trumbetti were arrested for opening up--for trying to 
operate their business, their gym. They were arrested.
    But my bet is, if these two individuals who owned this gym 
were outside just in front of their gym, and all the people who 
were working out in their gym were outside protesting, they'd 
have been just fine, but because they were in the gym working 
out, actually running their business, they got arrested.
    Do you think that's OK?
    Dr. Fauci. You know, I'm not going to opine on who gets 
arrested and who does not. I mean, I--you get where I'm going? 
I'm telling you, as a public health official, I say crowds----
    Mr. Jordan. Do you see the inconsistency, though, Dr. 
Fauci?
    Dr. Fauci. There's no inconsistency, Congressman.
    Mr. Jordan. There is no--so you're allowed to protest, 
millions of people on one day, in crowds, yelling, screaming, 
but you try to run your business, you get arrested, and, if you 
stood right outside of that same business and protested you 
wouldn't get arrested? You don't see any inconsistency there?
    Dr. Fauci. I don't understand what you're asking me as a 
public health official to opine on who should get arrested or 
not. That's not my position. You could ask----
    Mr. Jordan. So, you've advocated----
    Dr. Fauci [continuing]. As much as you want----
    Mr. Jordan. You've advocated for certain businesses----
    Dr. Fauci [continuing]. And I'm not going to answer it.
    Mr. Jordan. You've advocated for certain businesses to be 
shut down. I'm just asking you on your position on the 
protests.
    I mean, I haven't seen one--we've heard a lot about hair 
salons. I haven't seen one hair stylist who between haircuts 
goes out and attacks police or sets something on fire. But 
we've seen all kinds of that stuff during protests, and we know 
that protests actually increase the spread of the virus. You've 
said that.
    Dr. Fauci. I said crowds. I didn't say, specifically, I 
didn't say protests do anything.
    Mr. Jordan. So, the protests don't increase the spread of 
the virus?
    Dr. Fauci. I didn't say that. You're putting words in my 
mouth.
    Mr. Jordan. No. I would--I just want an answer to the 
question. Do the protests increase the spread of the virus?
    Dr. Fauci. I don't have any scientific evidence of 
anything. I can tell you that crowds are known, particularly 
when you don't have a mask, to increase the acquisition and 
transmission, no matter what the crowd is.
    Mr. Jordan. So, you don't have a position on whether the 
protests increase the spread of the virus or don't increase the 
spread of the virus?
    Dr. Fauci. I'm saying that crowds, wherever the crowds are, 
can give you an increased probability that there is going to be 
acquisition and transmission----
    Mr. Jordan. But do you understand Americans' concern? 
Protesting, according to--particularly according to the 
Democrats--is just fine, but you can't go to work, you can't go 
to school, you can't go to church. There's limits placed on all 
three of those fundamental activities----
    Chairman Clyburn. The gentleman's----
    Mr. Jordan [continuing]. First Amendment activities, but 
protesting is just fine.
    Dr. Fauci. You know----
    Chairman Clyburn. The gentleman's time has expired, but 
I'll just ask the gentleman to just think about his question 
and put it in reference to crowds that gather in political--at 
political meetings, at fundraisers, without masks, on an oil 
rig in Texas, nobody wearing a mask, nobody social distancing, 
but a fundraiser. Would that be problematic?
    With that, I'll yield five minutes to Mr. Foster.
    Mr. Foster. Thank you. Thank you, Mr. Chairman.
    Dr. Fauci and Dr. Redfield, I'm a scientist, as you are, 
and so you know how important it is that, when a great 
scientific breakthrough reaches the public, that the proper 
credit is given, not to just those who show up and claim credit 
at press conferences, but to the long list of federally funded 
researchers who have made these breakthroughs possible. And 
also, to the enlightened Federal employees and the politicians 
who funded that research.
    I remember back when, a few years ago, when we had 
newspaper headlines about all the miraculous cures in cancer 
immunotherapy, where I gave a floor speech on the U.S. House 
saying, yes, this was great, but equally great were the decades 
of federally funded research and the researchers who made those 
clinical breakthroughs possible.
    Also, frankly, that some of the credit goes to the 
Democratic and Republican Members of Congress who resisted the 
proposals for massive budget cuts to science that were proposed 
by Republicans for years in the Paul Ryan budgets and by the 
Trump and Mulvaney budget cuts since then.
    Now, in the case of the mRNA vaccines that have been so 
much in the news this week, the story does not start with 
Operation Warp Speed. It does not even start with the historic 
63-day sprint from the publication of the viral genome to the 
first patient injected by the mRNA test vaccines.
    The sprint, I believe, began when President Trump--when 
President Trump--well, this sprint actually began when 
President Trump was still ridiculing the idea of the pandemic. 
The sprint actually started when dedicated employees at NIH and 
Moderna, who understood the danger of COVID-19 and began 
working day and night.
    The story of Federal investments in mRNA vaccines actually 
starts, I believe, back in 2009, when President Obama, who was 
at the time unhappy with the speed of response to the H1N1 
swine flu epidemic, convened his scientific advisory panel, 
PCAST, which they did back in those days, and famously asked 
them: If you guys are so smart, how come you still make 
vaccines with chicken eggs?
    OK. So, one year later, in August 2010, PCAST put out a 
report on reengineering vaccine production for pandemics, which 
emphasized the potential of new technologies to make vaccines 
and therapeutics available far faster in a pandemic.
    Heeding the advice of his scientific panel, which they did 
back in those days, in 2013 the Obama Administration awarded a 
$25 million DARPA grant to a startup called Moderna to develop 
their mRNA vaccine platform for pandemic response.
    This was followed in 2015 by a $125 million investment by 
BARDA, so that by the end of the Obama Administration Moderna 
had mRNA vaccines and therapeutics under test in both animals 
and humans.
    So, why is it that the Obama Administration prioritized 
mRNA vaccines and therapeutics? Well, first off, it's their 
speed of development, which we saw realized in the 63-day 
sprint. It's the speed of manufacture, which has to do with the 
high yields of in vitro transcription reactions and their 
potency.
    Scientifically, the exciting news of the last few months is 
that a potent human immune response can come from doses as low 
as 30 micrograms of mRNA vaccine.
    So, 30 micrograms, what does that mean? What it means is 
that this 1 liter bottle, if it were full of mRNA vaccine, 
would contain over 30 million doses. This is enough to 
vaccinate every one of America's doctors and first responders, 
or all of its seniors over 75 years old.
    That is why the Obama Administration invested in mRNA 
vaccines and therapeutics starting back in 2009. And without 
those investments, frankly, Project Warp Speed would not have 
squat.
    Now, Dr. Fauci, would you agree that when there are great 
medical breakthroughs, that the public needs to be reminded 
about the long line of Federal R&D that's led to vaccine and 
therapeutic successes that we're anticipating?
    Dr. Fauci. Yes, Congressman, and it even goes beyond what 
you're saying. Everything you say is very well taken.
    And I think maybe it's a good time to recognize the fact 
that the generosity of the Congress through multiple 
administrations, both Democratic and Republican, and whether or 
not the Congress was controlled by Democrats or Republicans, 
the support for biomedical research that goes back decades, 
leading to everything that you're talking about, but even 
before then, some of the monoclonal antibody work, some of the 
work that's being done with the molecules that are directly 
antiviral molecules.
    I think we often forget that when we think of the product 
and often forget, as I think you have appropriately pointed 
out, that a lot of important things----
    Mr. Foster. Well, what are the scientific investments we 
should be making now to ensure that we are better prepared for 
future pandemics? And how can we support those investments with 
the kind of science budget cuts that we are seeing proposed by 
the--in the Trump and Mulvaney budgets?
    Dr. Fauci. Well, I mean, I hope we don't get cuts. But, in 
fact, we have been very----
    Mr. Foster. But they've been proposed. They've been 
proposed again and again.
    Dr. Fauci. Yes.
    Mr. Foster. OK.
    Dr. Fauci. Yes.
    Mr. Foster. Anyway, it looks like my time is up.
    Mr. Jordan. Mr. Chairman? Mr. Chairman, over here.
    Chairman Clyburn. I'll yield to the gentleman.
    Mr. Jordan. Yes. I ask unanimous consent to enter into the 
record a story from June 5, 2020, underscoring what Dr. Fauci 
wouldn't answer today.
    Dr. Fauci says: Large protests taking place across the 
country are a perfect setup for spreading COVID-19.
    So, he said that a month ago even though he wouldn't say it 
today. So, that's a story from Business Insider.
    But I also ask unanimous consent to enter into the record a 
June 12 story. Dr. Fauci tells ABC's ``Powerhouse Politics'' 
that attending rallies, protests is risky even though today his 
position seems to have changed. Obviously, his position has 
changed on many things many times over the last several months.
    But I'd ask to enter those two articles for the record.
    Dr. Fauci. But----
    Chairman Clyburn. I will yield to Dr. Fauci.
    Dr. Fauci. Like I said, any crowd--any crowd--whether it's 
a protest, but any crowd in which you have people close 
together, without masks, is a risk, and I'll stick by that 
statement. It's a public health statement. It's not a judgment 
on why you're there in the crowd. It's a statement related to 
the fact that you're in a crowd.
    Chairman Clyburn. Thank you, Dr. Fauci.
    Mr. Jordan. Mr. Chairman?
    Chairman Clyburn. And, without objection----
    Mr. Jordan. Mr. Chairman, I didn't ask him a question, and 
you let him respond. I was making a unanimous consent.
    Chairman Clyburn. And I'm going to run this meeting.
    Mr. Jordan. Well, but I would like a chance to respond to 
what he said.
    Chairman Clyburn. Just remember, I'm going to chair this 
meeting.
    Mr. Jordan. No, I understand you're the chair.
    Chairman Clyburn. Now, without objection----
    Mr. Jordan. That's why I said Mr. Chairman.
    Chairman Clyburn. Without objection, your statements, 
whatever you've got there, will be entered into the record.

    Chairman Clyburn. And, without objection, any gathering, 
whether you're protesting or whether you're politicking, any 
gathering would be risky. And that's what the man has said, and 
so----
    Mr. Jordan. Yes, but that's not--that's not what's 
happening. That's my point.
    Chairman Clyburn. Oh, well, you're telling me that a----
    Mr. Jordan. There are limits--people can't go to church, 
can't go to work, can't go to school.
    Mr. Raskin. Mr. Chairman, that gentleman is out of order.
    Mr. Jordan. But they can protest all they want.
    Chairman Clyburn. That goes for the Democrats and 
Republicans. I'll make the decision as to who is out of order. 
I'm going to be as gentlemanly as you would allow me to be, OK?
    Mr. Jordan. I appreciate it, Mr. Chairman.
    Chairman Clyburn. Well, thank you. And with that, I'll 
yield five minutes to Mr. Green.
    Mr. Green. Thank you, Chairman, Ranking Member, and 
witnesses for your amazing service to our country. Thank you.
    First, Dr. Fauci, there was a bit of an uproar about a 
picture of you at the Nationals game without your mask on. I 
think you were seated with your wife. You had a close friend 
there with no one else nearby you. And that gentleman who was 
with you had his mask on. I think you have said in the press 
since you took it off to take a drink of water.
    I just want to point out, according to an article in the 
New England Journal of Medicine, and I quote, ``Significant 
exposure to COVID-19 means face-to-face contact within six feet 
with a patient with symptomatic COVID-19 that is sustained for 
at least a few minutes, and some say more than 10 minutes or 
even 30 minutes. The chance of catching COVID-19 from a passing 
interaction in a public space is therefore minimal,'' end 
quote.
    The science seems to be pretty clear. We should absolutely 
wear masks when we're in close contact with those outside of 
our household. I think that was just the conclusion of that 
discussion. It's not a crime to pull your mask off to take a 
drink of water in 100-degree temperature when you're seated 
next to your wife and someone else is there.
    I guess I make the point to show how the media has created 
all of this hype, which has led to some officials across the 
country making decisions that are not based on science, and 
there are real consequences to those. So, I mean, if people are 
hot, they shouldn't get heatstroke and not take their mask off.
    I'd like to move on to some other troubling actions that 
were done this week. This week, the chairman of the committee 
sent four letters, all to Republican Governors in red states, 
demanding extensive documents related to coronavirus response. 
The White House Coronavirus Task Force report has 21 states 
listed in the so-called red zone.
    This isn't about transparency. It's about ridiculing four 
states, including my home state of Tennessee, and it distorts 
the truth. The letter signaled--or singled out--four GOP 
states. But what about the other 17 states? Why didn't 
California get included in the letter? They've seen an 
explosion in positive cases. They're in the spike. They're in 
the 21 listed red zone states.
    Targeting only Republican Governors when clearly 17 other 
states, many of whom are Democrat, are also experiencing the 
spikes and in the red zone shows this effort has nothing to do 
with getting answers and is, as the chairman has said in his 
opening comments, politics over science.
    No scientist who wants the truth samples just Republicans. 
Honestly, it's a laughable partisan strike.
    It also compounds the insult to all Americans for the 
failure of this committee to look at the real culprit. As I 
said in previous testimony, a Columbia University study showed 
that 66 percent of American deaths could have been prevented if 
China had spoken up one week earlier. That's thousands of 
American lives that could have been saved.
    So, instead of addressing the cause of 66 percent of our 
casualties, the Select Committee on the Coronavirus picks on 
American businesses, the Trump administration, and now four 
state governors, all Republican, when we know other blue states 
are in the exact same situation.
    This is the definition of partisanship. But I can hear it 
now. Didn't the right send a letter to certain Governors? And, 
yes, we did. We sent it to every single Governor who refused to 
follow the Trump plan--emphasis on plan--and sent COVID-
positive patients back to nursing homes, killing patients. We 
didn't select just a few of those.
    I applaud Congressman Foster, who approached me as a 
physician and asked me to join a bipartisan partnering with the 
administration to assist in the execution of Operation Warp 
Speed's plan. That's how we should be functioning, that kind of 
bipartisan action.
    Finally, on a positive note, I wanted to mention the 
Swedish study and then ask Dr. Fauci some questions about that, 
because I think it really illuminates some of the exciting 
findings in science.
    T cells are a type of white blood cell. They regulate 
immune response. The Swedish study found that many people with 
mild asymptomatic COVID demonstrate so-called T-cell immunity 
to the coronavirus. The study further found that twice as many 
who tested positive for antibodies had T cell immunity. So, we 
know there are tons of people out there with immunity that we 
aren't testing.
    And I'd love for you, sir, if you could comment, educate 
America, educate all of us a little bit on T-cell immunity and 
what the ramifications are to the plans.
    Thank you.
    Dr. Fauci. Thank you very much, sir. I'll very quickly try 
to answer that.
    So, there are two limbs of the immune response. One is an 
antibody, which is a protein that is made by the cells of the 
body to bind to the virus, and is usually the hallmark of 
protection against infection.
    There is another limb of the immune response called the 
cellular immune response of T cells, and those T cells have the 
capability of essentially suppressing or killing cells that are 
infected and preventing the cells that are infected from making 
new viruses.
    So, there are two parts of it. Even though one is generally 
felt to be protecting against the initial infection, the other 
is an important complementary.
    And you're right, the Swedes came out with a paper, and 
also a paper from NIH grantees from La Jolla just came out in 
the journal Cell showing the same thing; that, in individuals 
who were infected and recovered, they had T cell responses, 
but, importantly, there was T cell reactively also detected in 
nonexposed individuals, which means that maybe there is some 
memory from other coronaviruses that are benign cold viruses 
that you were exposed to that might--and I say might--explain 
why some people, even children, might be protected, that they 
had exposure that's not measured in antibody, but measured by T 
cells.
    This is work that we really need to pursue. We're just at 
the cusp of understanding the importance of this type of 
response in COVID-19.
    Thank you.
    Mr. Green. Thank you.
    Chairman Clyburn. The gentleman's time has expired.
    And as I yield to Mr. Raskin for five minutes, may I 
address the letter, which I have responded to? You have an 
answer from me.
    Mr. Green. Oh, I haven't seen it. Thank you.
    Chairman Clyburn. You have not seen the answer?
    Mr. Green. No, sir. I'm sure it's in my office.
    Chairman Clyburn. OK. Well, just to be sure, since you put 
the letter on the record here, let me put my response on the 
record.
    My response had to do with the four states that have 
refused to comply with the critical recommendations from the 
task force, and all four have Governors who have publicly 
stated that they do not plan to comply.
    In contrast to that, we did not send the letter to those 
states that did indicate that they were--will comply with the 
task force, and that's--three of those states had Republican 
Governors, and they did not get a letter from us.
    So, this has nothing to do with partisanship, but the 
political response, rather than responding to the science, and 
I responded to it.
    With that, I yield to Mr. Raskin for five minutes.
    Mr. Raskin. Thank you, Mr. Chairman, for calling this 
hearing on the urgent need for a national plan.
    A stack of paper is not a plan. A large and unwieldy stack 
of paper is not a plan. A plan is a comprehensive and 
coordinated strategy for victory, and we haven't seen anything 
like a plan. No one has shown us anything.
    Blaming other countries is not a plan. Blaming China is not 
a plan. Blaming China is not even a good excuse for the lethal 
incompetence and disinformation of President Trump.
    China's early cover-up of the disease only deepens the 
responsibility and complicity of President Trump who, on 37 
different occasions, as I've demonstrated by submissions to 
this committee, defended and excused and praised the Chinese 
Government and President Xi.
    A plan is a plan, and we haven't heard what the plan is, 
and this is what has bedeviled us from the beginning.
    Mr. Chairman, we've got 4.4 million cases. We lead the 
world in case count. We lead the world in death count. More 
than 153,000 Americans are dead right now. Fifty-four million 
people filed for unemployment benefits. We've seen a one-third 
drop in GDP--a one-third drop, unprecedented in economic 
activity.
    The chart behind me demonstrates the astonishing and 
terrifying growth of this disease. It took us 98 days to reach 
1 million cases. It took us 44 days to reach 2 million cases. 
It took 26 days to reach 3 million cases. And it took us only 
15 days to reach 4 million cases.
    Director Redfield, when do you estimate we're going to get 
to 5 million cases? What's next?
    Dr. Redfield. Thank you, Congressman.
    I think one thing I've learned about this virus is it's not 
predictable.
    I will say one thing that's important, that what happens 
next is really dependent upon if the American public fully 
embrace what we've asked. If they fully embrace those five 
steps, we'll get control of this pandemic.
    Mr. Raskin. Well, I thank you for that, and I thank both 
you and Dr. Fauci for restating the absolute imperative 
importance of everybody wearing their masks when they're out in 
public and everybody maintaining social distance and following 
the other public health protocols.
    But the public health officials have been subjected to 
harassment, and we've even seen some today, have been subjected 
to ridicule, and have been subjected to ludicrous, absurd 
contradiction.
    So, I want to go through some of the propaganda and 
disinformation quickly just as a public service announcement, 
because America is watching you.
    And, Dr. Fauci, why don't I start with you.
    Are children almost immune to the disease? Just yes or no, 
because I've got a lot to get through, please. Are children 
almost immune to the disease?
    Dr. Fauci. I'm sorry. You really have to--be a little bit 
more precise. You mean almost immune. Do children get infected? 
Yes, they do.
    Mr. Raskin. Have hundreds of thousands of children been 
infected?
    Dr. Fauci. Yes.
    Mr. Raskin. Hundreds of thousands of children infected. So, 
children are not almost immune to the disease.
    Is COVID-19 going to magically disappear, Dr. Fauci?
    Dr. Fauci. I do not believe it would disappear. Because 
it's such a highly transmissible virus, it is unlikely that 
it's going to disappear.
    Mr. Raskin. Does wearing a mask give people COVID-19?
    Dr. Fauci. Does wearing a mask give it? No.
    Mr. Raskin. OK.
    Dr. Fauci. Not to my knowledge.
    Mr. Raskin. All right. Is COVID-19 a hoax?
    Dr. Fauci. No.
    Mr. Raskin. Should people take hydroxychloroquine as a cure 
for COVID-19?
    Dr. Fauci. The overwhelming cumulative evidence of properly 
conducted randomized controlled trials indicate no therapeutic 
efficacy for hydroxychloroquine.
    Mr. Raskin. Can people cure themselves of COVID-19 by 
injecting themselves with disinfectant----
    Dr. Fauci. No.
    Mr. Raskin [continuing]. Or bleach? I'm sorry?
    Dr. Fauci. No.
    Mr. Raskin. Are you safe from the disease if you go to one 
of the aforementioned large assemblies, crowds, demonstrations 
without a mask on and not observing social distancing if you 
sign a waiver that you won't sue the sponsor of the event?
    Dr. Fauci. I'm not so sure those things are connected, but 
I'll repeat what I've said multiple times, that being in a 
crowd, particularly without a mask, is a risk for acquisition 
and transmission.
    Mr. Raskin. OK. But signing a waiver doesn't confer any 
kind of immunity on you from being infected by the disease?
    Dr. Fauci. No. Of course not.
    Mr. Raskin. OK. All right.
    Dr. Fauci, the European governments are in a completely 
different place. They've got the disease on the run. In fact, 
the Asian countries have the disease on the run.
    I saw some remarkable figures. Almost every other country 
on Earth is doing far, far better than the United States, 
except for Brazil, whose President has followed President 
Trump's policies.
    But we have 153,000 dead. Canada, our next-door neighbor, 
has less than 9,000. We have 17 times the number of deaths from 
it. China, which of course is much larger than the United 
States, has lost 4,661 people. We've lost 153,000 people. Our 
rate of death is 36 times higher than China. And on and on.
    Do we have the financial resources and the scientific 
expertise in America to do what other governments have done to 
bring the infection rate down to something manageable so the 
end is in sight of this nightmare?
    Dr. Fauci. I believe we do have the tools, and certainly 
there has been a considerable degree of financial investment.
    Mr. Raskin. So, what is the difference? Why are all of the 
other countries defeating the disease and we're not? Why do we 
not have a plan, a strategy for victory, to win, to beat COVID-
19?
    Dr. Fauci. Well, I believe I addressed that in not only my 
opening statement, but also in response to the question of one 
of the Congressmen, and that is that, when you look at the 
comparison between Asia and Europe, as is shown by the 
chairman's poster up there, that when they shut down they shut 
down to the tune of about 95 percent, getting their baseline 
down to tens or hundreds of cases per day. Whereas, when we did 
it, we got it down, but, unfortunately, our baseline was 20,000 
a day.
    Mr. Raskin. All right. So, we're getting somewhere. But 
would you agree with me that the critical difference is either 
the presence or the absence of social cohesion and political 
leadership to actually develop a plan, execute it, and stick to 
it?
    Dr. Fauci. I think there was such a diversity of response 
in this country from different states----
    Mrs. Maloney.
    [Presiding] The gentleman's time is up.
    Dr. Fauci [continuing]. That we really did not have a 
unified bringing everything down.
    Mr. Raskin. Yes.
    Mrs. Maloney. The gentleman's time has expired. But, Dr. 
Fauci, if you'd like to add more to his question.
    Dr. Fauci. No, I think I just answered the question.
    Mr. Raskin. I mean, the end of it was essentially, do we 
need to stop these disgraceful attacks on public health 
officials?
    Mrs. Maloney. The gentleman's time has expired.
    Mr. Raskin. Thank you. I yield back.
    Mrs. Maloney. I now recognize Mr. Kim for five minutes.
    Mr. Kim. All right. Thank you.
    Thank you to the witnesses for coming out here today. I 
appreciate it.
    I wanted to just start with a question, a quick question of 
the three of you, of yes, no, if you're able to. It's a 
question that comes from a constituent of mine, and the 
constituent asked me, and I wanted to ask you, and I'll start 
with you, Dr. Redfield, would you assess that our Federal 
Government, the CDC included, is doing everything possible to 
respond to the coronavirus crisis? Dr. Redfield?
    Dr. Redfield. I think we do have a comprehensive response. 
The one comment I want to make is the complexity is, as I 
mentioned before, for over five decades we've underinvested in 
the core capabilities of public health. And hopefully we've 
seen now the consequence of that.
    Mr. Kim. But with our capabilities right now, would you 
assess that the Federal Government is doing everything 
possible?
    Dr. Redfield. Within the capabilities that we do have, but 
recognizing the core capabilities have not been invested in 
effectively over the last five decades.
    Mr. Kim. OK.
    Admiral, same question to you. Is our Federal Government 
doing everything possible to respond to the coronavirus crisis?
    Mr. Giroir. It's a very broad question. I do agree with Dr. 
Redfield. I think, within the capabilities we have, we are 
doing that.
    Mr. Kim. Dr. Fauci, do you agree with your colleagues here? 
Within the capabilities of the Federal Government, are you 
doing everything possible to respond to the crisis?
    Dr. Fauci. Right. I can only speak very cogently about the 
agency that I'm responsible for, and I can tell you, 
absolutely, that the National Institutes of Health is really 
doing everything they possibly can.
    And it's really an all-hands-on-deck approach not only for 
the institute that I direct, which is the National Institute of 
Allergy and Infectious Diseases, but the Director of NIH 
himself is spending most of his time right now on this even 
though he's responsible for a lot of other institutes.
    So, I think we are doing about as much as we possibly can.
    Mr. Kim. Well, I appreciate that, Dr. Fauci.
    Admiral, I wanted to turn back to you. I just got a text 
message from a constituent today that follows up on this type 
of question. And she, Laura, says, ``I got a COVID test 10 days 
ago at a drive-up testing site and still do not have the 
results.''
    I know you mentioned before that 76 percent of tests are 
coming back within five days, but that also means that about a 
quarter of tests in this country are taking more than five days 
to be able to get these results back.
    So, I wanted to ask you, would it be possible for our 
Nation to have results for all COVID tests completed and 
returned within 48 and 72 hours? Is that a possible benchmark 
that we can achieve?
    Mr. Giroir. It is not a possible benchmark we can achieve 
today given the demand and the supply. It is absolutely a 
benchmark we can achieve moving forward.
    Mr. Kim. Now, I guess a question. And so, as you said, the 
demand and the supply. Now, the demand is something that you 
don't have an ability to control, but in terms of the supply, 
when I asked you that question, are we doing everything 
possible to be able to address the needs of the coronavirus 
crisis, what would you say to Laura here? Is the Federal 
Government doing everything that they can possibly to be able 
to try to get that testing timeline down to 48 to 72 hours?
    Mr. Giroir. I do believe we are. We talked about just the 
raw numbers of things, but we're investing in a number of 
technologies that will greatly expand point-of-care testing. 
And I think that's the future, to move more and more to point-
of-care testing. We're doing that with existing technologies, 
with new EUAs.
    Dr. Fauci talked about the NIH's efforts, and I think there 
will be a lot of announcements from them this morning as well.
    So, that's where we're pointing, because point of care 
gives you a result in 10 minutes.
    Mr. Kim. Well, I was really interested in what you said 
earlier in this hearing, which was about trying to get point-
of-care testing to nursing homes and long-term care facilities. 
I agree with that greatly. And that feels like it's a place 
where the Federal Government is stepping up with additional 
resources, I'm guessing because the states have been unable to 
be able fulfill something of that nature. Is that correct?
    Mr. Giroir. We always wanted to do that, but we did not 
have the physical technologies that were available. With the 
recent approval of a second point-of-care instrument and the 
manufacturing, we were able to do that. We were not--and it's, 
literally, as soon as that happened, we put that into gear.
    And I just wanted to correct----
    Mr. Kim. Well, what interests me about that is that this is 
a situation, again, when it comes to testing I keep hearing 
that this is states' responsibility to kind of take the lead on 
this, but with the long-term care it seems like this is a place 
where the Federal Government is stepping in and trying to surge 
resources.
    Mr. Giroir. So, this has always been a collaborative 
relationship, right? So, the Federal Government buys all the 
swabs and tubes and media. We deliver that to the states. We 
buy 40 percent of Abbott ID NOWs, deliver those to the states. 
We make affirmative actions for nursing homes, because that's 
where 40 to 50 percent is.
    And everything else is really a collaborative interaction. 
There is part state, there is part Federal. We really do work 
together on that. We do not defer everything to the state. If 
we did, I wouldn't be spending 24/7 with a team of 50 people 
since March 12.
    Mr. Kim. Great. Thank you so much.
    My time has expired. I yield back.
    Mrs. Maloney. Thank you.
    Without objection, I would like to place two reports into 
the record. One is from Forbes, and it's entitled ``Researchers 
Say Protests Did Not Increase COVID-19 Spread, but Republicans 
are Still Blaming Them.'' This is one report.
    And I have in my hand here, I have a report and a study 
from the National Bureau of Economics Research that was 
published last month, and this study found that there was no 
connection between Black Lives Matter and protests in recent 
months and increased spread of the coronavirus.
    So, without objection, I would like to place both of these 
studies into the record.
    Mrs. Maloney. We will now go to a second round of 
questioning. I'd like to ask the panelists, would you like a 
five-minute break before we begin the next line of questioning?
    Yes. OK. So, we are taking a five-minute break, and we will 
be back in five minutes for more questioning.
    Thank you.
    [Recess.]
    Chairman Clyburn. The meeting will now come back to order.
    I understand that Admiral Giroir will have a hard stop at 
11:45. That's only about 25 minutes from now. We will go into a 
second round of questionings, but we will recognize that you 
will have to leave, and we appreciate that.
    Mr. Giroir. Thank you, Mr. Chairman.
    Chairman Clyburn. I think that everybody got their first 
round in, and so I am going to begin the second round, 
referring to--well, I'll yield myself five minutes. OK. Thank 
you.
    Now, President Trump has just tweeted out a statement that 
I'm going to quote. In reference to my chart about comparing 
these cases, he says that the United States has far more cases 
than Europe--and I'm quoting here--because we do much more 
testing than any other country in the world. If we had no 
testing or bad testing, we would show very few cases.
    Now, Dr. Fauci, do you agree with the President's 
statement, or do you stand by your previous answer that the 
difference is caused by multiple factors, including the fact 
that some states did not do a good job of reopening?
    Dr. Fauci. I stand by my previous statement, that the 
increase in cases was due to a number of factors, one of which 
was that, in the attempt to reopen, that, in some situations, 
states did not abide strictly by the guidelines that the task 
force and the White House had put out, and others that even did 
abide by it, the people in the state actually were congregating 
in crowds and not wearing masks.
    I might also just bring something that I thought about and 
mentioned to you before, Mr. Chairman, that, when we talk about 
crowds and masks, it's always better outdoors than indoors, and 
being in crowds indoors is always worse than crowds outdoors. 
That's the case because of the circulation of air. So, we 
should avoid crowds under any circumstances, but wearing a mask 
is the critical issue.
    Chairman Clyburn. I agree with that. And I think that I 
will go to restaurants who allow me to sit outdoors----
    Dr. Fauci. Right. Yes.
    Chairman Clyburn [continuing]. And not indoors. Because 
I've been following the science and I've been agreeing with all 
three of you as to how we ought to conduct ourselves.
    But let me just say--and I feel very strongly about this--
that the First Amendment to the United States Constitution 
means a whole lot to me. I'm sitting here as a result of a 
protest. We opened up this meeting today, many of you, Dr. 
Redfield most especially, and you, Mr. Ranking Member, talking 
about our great friend, John Lewis, with whom I enjoyed a 60-
year relationship. We met protesting, trying to get off the 
back of the bus, trying to integrate schools, trying to be able 
to shop in a 5-and-10-cent store and not be arrested for 
trespassing. Fine for us to get school supplies out of that 
store, but you can't sit down and eat a hamburger. I'm glad the 
government did not limit our protests.
    So, the First Amendment has constraints. The Supreme Court 
has told us that. You can't yell ``fire'' in a crowded theater. 
But you can peaceably assemble to redress your grievances. You 
can do that.
    Mr. Jordan. I agree with that, Mr. Chairman.
    Chairman Clyburn. Well, I don't think any of those people 
who were marching out here on this plaza that's now called 
Black Lives Matter Plaza--they were not carrying guns. They 
were not disturbing anybody. They were peaceful. They were 
peaceful.
    When John Lewis went across that Edmund Pettus Bridge, 
nobody had any weapons. They were peaceful. They were met by 
weapons. I don't want us to get confused here.
    So, I'm going to close out my five minutes here by asking 
whether or not this disconnect that seems to be between what 
the White House is saying publicly and what they are sending 
out to the states privately--and, as we mentioned early, in the 
letter, several of these states seem to be reacting to the 
public statements from the White House and not following the 
recommendations of the task force that's being sent to them 
privately.
    Now, this week, a bleak White House Coronavirus Task Force 
report paints a very different picture. I've got the document 
here. This was sent out to the states and those states in the 
red zone are refusing to comply, as you heard from us.
    So, I'm not being partisan here. We're trying to save 
lives. I started my professional career as a public school 
teacher. I have a daughter who's spent 25 years in a classroom, 
and she's telling me every day how concerned teachers are about 
returning to school without the safety precautions that so many 
school districts have asked us to do.
    That is what my concern is. It's not about going back to 
school. I know the value of going to school. I know what it is 
to represent a school district where thousands and thousands of 
children do not have the internet and cannot receive online 
learning. I want them in a classroom. I want them to be 
educated. But I want them safe. That's what this is about.
    And I'm not going to ask for an answer to that. I've gone 
over my time. But I'll yield back--I'll yield to the ranking 
member.
    Mr. Scalise. I thank the gentleman for yielding.
    And I'll start my questions with where the gentleman from 
South Carolina ended, and that is with safely reopening 
schools.
    I first want to point out that this is a report from the 
United States Department of Treasury. As of June 30, based on 
the CARES Act and the $150 billion that we in Congress, working 
with President Trump, sent to the states for various COVID-19 
recovery issues, every state still has billions of dollars 
remaining in those accounts.
    And I would urge any school system--because we don't want 
any school system to open up without safety precautions. In 
fact, the American Academy of Pediatrics lays out really well 
how to safely reopen schools. The Centers for Disease Control 
lays out very clearly how to safely reopen schools. And that 
includes masks, sanitizers, other supplies.
    Any local school system that wants to claim they don't have 
the ability to do that, go straight to your Governor. Your 
Governor has billions of dollars in their account that we 
appropriated, sitting there waiting for you to buy supplies. 
It's fully eligible. We don't need to change a law. Billions of 
dollars. Every state has money for supplies. If you run out, 
give us a call. But, right now, there is money in your state's 
account to buy supplies, masks, sanitizers to safely reopen.
    But now let's talk about why it's so important to safely 
reopen. And I'll ask you, Dr. Redfield, because I know you've 
done a lot of work in this.
    We see, for example, the District of Columbia is currently 
saying that they're not going to reopen with in-school 
learning. There's not been a single death, not a single death, 
of anybody under the age of 19 in the District of Columbia. In 
fact, in Virginia--you're seeing northern Virginia take this 
same close-minded approach--not a single death in the entire 
state of Virginia of a person under the age of 19 from COVID-
19.
    But now let's talk about the danger, the detriment that 
this is doing to those children. I want to dig deeper into the 
studies I've seen on some of the things you talked about mental 
health, a lack of screening for child abuse.
    I've seen maybe 14,000 cases of child abuse are reported in 
schools every year. That's not happening. And for those 
children that are in those home settings where the parents are 
abusing the children, nobody's getting reported because the 
children are sitting at home. They're not, right now, in many 
of these cases, going to be allowed to go into the school, 
where it can be detected.
    And it is detected every year. I know we don't talk about 
it a lot. It's an unfortunate part of our country's society, 
but it happens. Children are abused. And, in so many cases, 
it's detected in the school. That's not going to happen if 
these schools don't open.
    Can you talk about those numbers? Have you seen some of 
that data?
    Dr. Redfield. Well, Congressman, I can just reemphasize 
what you've said. And it's obviously one of the more disturbing 
consequences of the lack, now, of that reporting, not just at 
schools, which have been so responsible for mandatory reporting 
child abuse, but the other place that sometimes it's recognized 
is obviously in the clinical setting. And, as we know, 
pediatric visits have been curtailed in a lot of clinical 
settings.
    I mean, it is a highly significant situation now. And you 
can imagine what it must be like to be one of those currently 
abused children that has sort of lost their safety nets.
    Mr. Scalise. Well, thank--and I apologize. We're running 
low on time.
    I would just urge any local school system that's making 
their decisions, go look at the CDC guidelines, go look at all 
of the data that's out there for teachers, for students, how to 
safely reopen. You can do it.
    You owe it to those kids. Fifty-thousand kids in the 
District of Columbia, over 50 million children are counting on 
us to do this right. It can be done. You have to go do it. You 
owe it to those kids. They're being denied that opportunity. 
Don't deny them.
    If you need money, there's billions of dollars sitting out 
there for the supplies to keep the schools safe. Go make it 
happen.
    Dr. Fauci, I want to talk to you about Operation Warp 
Speed. And, first, I want to thank you for, in your opening 
statement, talking about that over 250,000 people have signed 
up for those clinical trials. What's that website again if 
somebody in America wants to be a part of this trial?
    Dr. Fauci. CoronavirusTreatmentPrevention.org.
    Mr. Scalise. Thank you.
    Now, to ask about--and I know a lot of people don't really 
know the details--and, again, of all of these plans that are 
out there, these are plans--I know some people, including some 
people in this room, disagreed with President Trump's decision 
to stop flights from China, for example.
    As you testified earlier, it was the right decision, and it 
saved lives. I guess they were OK if more lives would've been 
lost. But that decision saved lives. It was part of a plan. 
They might not agree with the plan, but the plan saved lives.
    When we talk about Warp Speed, I do think it's real 
important to note--because some people are concerned that there 
might be some cutting of corners to get to a quicker vaccine. 
Clearly, that's not the case.
    But what President Trump really has done is removed red 
tape so that agencies like the FDA can laser-focus on putting 
their efforts behind finding a vaccine. President Trump's 
worked, for example, to make sure that clinical trials can be 
run simultaneously on the most promising candidates--a very 
targeted plan to quickly find a vaccine that's safe.
    So, if you want to talk about Operation Warp Speed, how 
safe it's been, and how that is helping us to move forward. It 
is red tape being removed by the plan that President Trump has.
    Dr. Fauci. Yes, it is, Congressman.
    In fact, as I mentioned and I'll just reconfirm it right 
now, is that the speed is not all at the compromising of safety 
nor of scientific integrity. Getting from the sequence to the 
vaccine production was record speed. Had nothing to do with 
safety, had nothing to do with cutting corners.
    From the vaccine to the Phase 1, again, was in record 
speed, only because red tape was really avoided. And as we got 
into Phase 3, the same thing----
    Mr. Scalise. And have you seen concerns about China trying 
to steal that information? I understand NIH has an 
investigation going on.
    Dr. Fauci. Yes----
    Mr. Scalise. We've seen cases where China's trying to steal 
this information. Clearly, they're a threat that President 
Trump is taking on.
    What have you seen, and what is the threat?
    Dr. Fauci. Yes. I have heard that there's been trying to be 
hacking into the websites and the online components of certain 
of the people who are developing vaccines. I've just heard 
that; I have no proof of that.
    Mr. Scalise. Thank you.
    Mr. Chairman, I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes for five minutes Ms. Waters.
    Ms. Waters. Thank you very much.
    Let me first say that I was pleased to hear the very, very 
warm comments about John Lewis this morning. We have been 
memorializing him in so many different ways, but, you know, 
between the press and everybody else, we've been doing him 
justice for the sacrifices that he has made.
    And let me just tell you, this virus is not Democrat or 
Republican. I am going to send my condolences to the family of 
Herman Cain, who was a Presidential candidate, who was a good 
friend of the President, who happened to have been at the rally 
in Tulsa June 20, with no mask on, with a group of people 
around him with no masks on. And he's dead. He died.
    I'm told that he was in good health and that he, of course, 
contracted the virus as a result of his attendance without a 
mask there. So, my condolences to his family, because, like I 
said, this is not Democrat or Republican.
    I just want to remind the committee that I spoke earlier 
about the manipulation of hospitalization data, what the 
President has done, basically ordering hospitals to change how 
they report hospitalization rates.
    I drafted an amendment to H.R. 7617, one of the Fiscal Year 
2021 appropriations packages that includes the Department of 
Health and Human Services. My amendment, which prohibits any 
funds from being used to require hospital laboratories and 
acute care facilities to report COVID-19 data under 
requirements imposed by the Trump administration's new rule, 
was adopted. I look forward to preventing a harm that I believe 
will lead to senseless and avoidable suffering.
    Let me go further and say that I am alarmed about the way 
that the President is handling so-called information about 
children and their ability to return to school.
    This is a President who first called the pandemic a hoax. 
This is a President who said it was going to just disappear. 
This is a President who said you don't really need masks. He 
didn't believe in them. He's gotten religion in the last few 
days. This is a President who disregarded social distancing. 
This is a President who recommended hydroxychloroquine as a 
cure. And this is a President who went so far as to say 
disinfectant could be used.
    So, now, this President, who expects us to believe him 
rather than the medical experts, is saying children are almost 
immune.
    Is that an expert medical conclusion, Dr. Fauci, that 
children are--whatever that means. What does that mean, 
children are almost immune from this virus?
    Dr. Fauci. Well, generally, when you say a person is 
immune, that they're protected from getting infected. And 
children do get infected.
    Ms. Waters. So, this is not an expert medical conclusion 
that we have had documented somewhere?
    Dr. Fauci. Well, I mean, if you're talking about a 
conclusion that children in general are immune, that children 
do get infected. We know that, so, therefore, they're not 
immune. I mean, they----
    Ms. Waters. OK.
    Dr. Fauci. I must just say, Congresswoman, that when 
children get infected, that when you look at the deleterious 
consequences, they generally do much, much better. Because if 
you look at the hospitalizations, that children have a much, 
much lower rate of hospitalizations than adults. In fact, the 
curve goes way up as you get older and older. And when you get 
to the age group of children, they generally do not get serious 
disease as much as----
    Ms. Waters. I understand that, and I've been listening, and 
I did understand what you just described. But what I was asking 
really was about this President's latest comment, that children 
are almost immune. So, I think I got the answer to that.
    But let me just say to Mr. Scalise that this billions of 
dollars that you're talking about in every state, I don't know 
where they are. But you keep referring to supplies.
    It's more than about supplies. It's more than about being 
able to wash your hands. It's about space and whether or not 
all of the schools have the space to do the social distancing. 
It's about whether or not children are going to wear masks and 
how that's going to be enforced. It's about how you keep 
children from gathering. It's about how do you feed them. It is 
about more than the fact that they need some supplies----
    Mr. Scalise. Would the gentlelady yield?
    Ms. Waters. Yes, I'll yield.
    Mr. Scalise. Clearly, that is all part of what is laid out 
in CDC guidelines, in the American Academy of Pediatrics 
guidelines. They lay out those guidelines for how to do all of 
those things.
    Ms. Waters. OK. Reclaiming my time----
    Mr. Scalise. A teacher is usually 10 feet----
    Ms. Waters. Reclaiming my time----
    Mr. Scalise [continuing]. Away from the students.
    Ms. Waters. Reclaiming my time, let me just say this: that 
all of the professionals are saying that this is a decision 
that must be made by parents in the communities with the 
educators, et cetera, et cetera. You cannot hand down an answer 
from the Federal Government that, you know, would absolutely 
protect these children. One decision by the Federal Government 
is not sufficient to force these schools to open.
    I yield back.
    Chairman Clyburn. I thank the gentlelady for yielding back.
    Before I go to Mr. Jordan, let me say to Admiral Giroir, I 
understand that you need to leave in four minutes. Would there 
be anything you'd like to enter into the record before leaving?
    Mr. Giroir. No. The reason I'm leaving is because we have a 
meeting, virtually, with all 6,100 of the Commissioned Corps 
officers, whom I have the honor to lead, along with Sergeant 
General Adams.
    We've done over 7,200 deployments of 4,000 individuals. And 
let me tell you, the other 2,000 are hard at work taking care 
of people at qualified health centers or the Indian Health 
Service or in the prisons.
    So, I mean no disrespect by leaving, but this is a crunch 
time for our officers on the front line of the pandemic, and I 
really appreciate the opportunity to recognize them and also to 
be with my brothers and sisters in uniform.
    Chairman Clyburn. We thank you for your service, and we 
thank you so much for that.
    I think you might find me to be the biggest booster in the 
U.S. Congress for federally qualified community health centers. 
I consider them to be the ultimate safety net in healthcare. 
And I have been that way since I've been in the Congress. I go 
back over 50 years with community health centers, and I believe 
in them. And thank you so much for bringing them into the 
process.
    Mr. Giroir. Thank you.
    Chairman Clyburn. And, with that, I'll yield to Mr. Jordan 
for five minutes.
    Mr. Jordan. The right to protest is important, Mr. 
Chairman. I have engaged in it with fellow citizens, peacefully 
assembling to talk about important public policy issues. My 
guess is everyone on this committee, probably everyone in the 
U.S. Congress, has done the same thing.
    But I think all of the First Amendment is important. 
Democrats seem to think it's just the right to protest. I think 
all of it--if you think about the freedoms we have in the First 
Amendment--freedom of religion, freedom of the press, freedom 
to assembly, freedom to petition your government, freedom of 
speech--all of them are important.
    And what's interesting to me is the very first one the 
Founders mentioned was your right to practice your faith. But 
government's putting all kinds of limits on Americans' ability 
to do that, and Democrats are just fine with it. In fact, 
Democrat mayors and Governors have been sued over limiting 
people's right to freedom of religion.
    I want consistency. That's what I want. In fact, I'm 
concerned about the whole Constitution. Democrat mayors and 
Governors have limited Americans' right to exercise their 
Second Amendment liberties, closing down stores that allow 
people to exercise and purchase firearms and exercise their 
Second Amendment liberties.
    I think it's important that Americans get an education, but 
we've got Democrats who say, can't go back to school. Kids 
can't go get what they need to put them on the path to 
achieving the American Dream, but, boy, they can protest. 
Everyone can protest.
    In Portland, in fact, the teachers union says, we don't 
want to go back to school, we don't want to teach kids, but 
they've actually encouraged teachers to go protest. The nine-
week protest going on in Portland, where they burn the city 
every single night, where just last weekend three officers were 
blinded by the lasers that some of these ``peaceful'' 
protesters use.
    So, I'm concerned about Americans--all rights. All kinds of 
Americans right now aren't permitted to go to work. Maybe it's 
a small business they started, put their entire life savings on 
the line, started this business, have a number of employees 
whose families are counting on them running their business. And 
what does government do? What do Democrat-led governments do? 
They arrest them if they want to run their business. Just ask 
Ian Smith and Frank Trumbetti, who run a gym in New Jersey.
    So, the ability to engage in your livelihood, the ability 
to have your kids get an education, the ability to practice 
your faith are just as important, in my mind, as protesting. I 
just wish the Democrats would look at all the rights we enjoy 
as Americans and make sure that they're dealt with in a 
consistent fashion.
    This idea that we're limiting what people can--practice 
their faith, run their business, employ people, engage in their 
livelihood after they've poured their entire lives, their 
families' resources into it, is just wrong.
    You know who else has to go to work? You know what? You 
know who else has to go to work? Law enforcement has to go to 
work. Are you guys tracking what's happening to law enforcement 
at all at these protests?
    And I'm not talking about the 49 police officers who were 
attacked two weeks ago in Chicago. I'm not talking about the 
three who were blinded this past weekend in Portland. I'm not 
even talking about what the Seattle chief of police said, when 
she said she can't deploy--she had to do an adjusted deployment 
for her police officers because the protests were so bad and 
the defunding concept that is happening around our country in 
these cities. Chief Best said she had to do an adjusted 
deployment; told the citizens, ``We're not going to be there. 
You're on your own.''
    But where they are out there, these police officers, are 
you guys tracking what's happening to them? Not talking about 
the violence, but the exposure they have to the coronavirus?
    Dr. Fauci?
    Dr. Fauci. I'm sorry, sir. What was the question?
    Mr. Jordan. Are you tracking what's happening to the police 
officers and their exposure to the coronavirus while they're 
out doing their job?
    Dr. Fauci. I don't do tracking of the infection. That's 
probably more of a CDC question. I've not tracked----
    Mr. Jordan. Is that a concern? You talk about Park Police 
have been under siege. You're talking about law enforcement in 
our municipalities that have been attacked. But I'm just 
talking about the exposure to the virus, as well, when people 
are yelling and screaming in their face. Are you concerned 
about that?
    Dr. Fauci. As I said before, I'm concerned about any 
crowds, particularly people who don't wear masks. I'm concerned 
more about indoor crowds than I am of outdoor masks. But crowds 
without masks are a problem.
    Mr. Jordan. Dr. Redfield?
    Dr. Redfield. We continue to look at a variety of first 
responders in some of our surveys, looking at antibody to try 
to understand what the virus attack rate is. We do have that 
for some cities. I don't have it for the West Coast right now, 
but we----
    Mr. Jordan. So, you do have that information on some law 
enforcement in some cities?
    Dr. Redfield. First responders. For example, we've done New 
York. We've done Detroit. We're doing Rhode Island right now. 
And----
    Mr. Jordan. Well, that'd be information that would be 
helpful to this committee.
    When I think about what our law enforcement is having to 
endure, particularly at these protests, not just the violence 
but the exposure now that they're getting to the virus from the 
protestors--and, frankly, I would--I wish we would get 
something from the other side.
    The silence on what's happening at these protests and the 
impact it's having on our law enforcement I think is just 
unfortunate. I hope they join us in speaking out against the 
defund-the-police concept and everything that's happening to 
law enforcement around the country.
    Chairman Clyburn. The gentleman's time has expired.
    And as I yield to Mrs. Maloney, I will say to the 
gentleman, I'm sure enough waiting on you to tell me the 
differences between a first responder and an essential worker. 
Just think about that for a moment.
    Mr. Jordan. All workers are essential.
    Chairman Clyburn. With that, I'll yield back--I'll yield 
five minutes to Mrs. Maloney.
    Mrs. Maloney. I thank the chairman and the ranking member 
for this incredibly important hearing and for all of our 
participants, our witnesses.
    I have two questions that I think are especially relevant 
that have not been discussed very much.
    And one is, what is the task force doing in relation to 
safeguarding elections?
    We are going to be all voting in November. Some states have 
vote by mail; other states do not. And many people prefer to 
vote in person. And we have guidelines that say social 
distancing of six feet, but possibly could it be changed to 
three feet if it's going to be more of a hurried participation?
    But I think it would be helpful to the American public if 
the task force considered and came out with clear guidelines 
for the professionals working in the board of elections across 
the country and the people participating in voting.
    So, I'm making that request. You may want to comment on it 
now, Dr. Fauci, or get back to us.
    Dr. Fauci. I'd be happy to get back to you on that. We 
could discuss this at a task force meeting, if you'd like, and 
get back to you, Congresswoman Maloney.
    Mrs. Maloney. And to the public, I would say.
    Dr. Fauci. Yes.
    Dr. Redfield. Congresswoman, if I could just comment. CDC 
did in March and updated in June guidelines for polling 
facilities, and we'll obviously be looking at that to see if 
they need to be updated more.
    We do have an MMWR coming out this week, looking at the 
primary results in Wisconsin. So, this is an area we're trying 
to make sure that the polling centers and people who go to 
polling centers to vote understand the importance of the 
guidance we can give.
    Mrs. Maloney. That would be very, very helpful.
    Second, as a former teacher, I'm concerned about the 
contradiction in messaging. Now, as a teacher, we're taught to 
get your facts straight and then communicate it very simply and 
directly.
    So, the task force will come out with very important, 
relevant information, and I try to follow it all religiously. 
But then it's countered by other leaders. And this, I think, 
underscores--or undermines the ability of the public to 
respond. And maybe you could get back to me on that.
    But I also want to talk about something that I think is 
very important, that people are really not discussing, and that 
is the turnaround time on testing.
    And, in New York, we are working very hard not only in 
supplying the tests, but we're also trying to trace and 
isolate. And the professionals working in this area say they 
have to wait so long, especially if it's a private test, like, 
from Quest or something. The turnaround time is, like, a week 
or 16 days in some cases. So, then they can't really trace, 
because, by the time they get the results of the test to start 
tracing and isolating, it's too late.
    So, I'd like both of you to comment on it. This is 
something that my city is working very, very hard to respond 
professionally to everything you're recommending, but they tell 
me they're having a terrible time trying to implement the 
tracing and the isolation. And they nail it on the turnaround 
time from the test is too slow.
    Dr. Fauci. Well, thank you for the question, Congresswoman 
Maloney. Admiral Giroir had actually addressed that, but maybe 
I could just summarize what he had said both in his opening 
statement and upon response to a question.
    There's no doubt--and I've said that myself--if you have to 
wait multiple days for the result of a test and the test is 
done in the context of contact tracing, that it, in many 
respects, obviates the whole purpose of doing it. Because if 
you have to wait that long, a person has already been out in 
the community for that period of time.
    One of the ways to kind of prevent that and mitigate that a 
bit is that, if a person goes in for a test, they should assume 
that it might be positive and should essentially isolate 
themselves before they go back until they get the result of the 
test.
    But in response to that, as Admiral Giroir had said, the 
reason for that is that there's such a surge of demand for 
tests, that they're trying to overcome that by trying to 
separate the testing for surveillance and give it, for example, 
to one group and let the testing that has to do to determine if 
an individual is infected, to be able to cut that down. He 
explained that, but, as I said, he's much more capable of 
giving us the precise numbers.
    But it is an issue if you can't get it within a 24-to 48-
hour period.
    Bob.
    Mrs. Maloney. Thank you.
    I yield back.
    Chairman Clyburn. I thank the gentlelady for yielding back.
    The chair now recognizes Mr. Luetkemeyer for five minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    One of the words I use to try and discuss this issue, the 
COVID problem, with people is always ``perspective.'' Try and 
keep in perspective the disease, the solutions, the other 
things that are out there. And this is why I asked the question 
a while ago with regards to attention on COVID and the seeming 
lack of that for a while on the rest of our healthcare needs.
    Another situation that I think is concerning is, as we open 
up our schools, one of the things that--you know, we look at 
the damage and concern we have for the children's healthcare, 
but yet--I did a little research on football injuries. We're 
almost in the same neighborhood with the deaths, not taking 
into account the other severe and lifetime injuries that are 
sustained by young men playing football in high school, versus 
the total deaths that would be anticipated from opening and 
reopening our schools. And I don't see and hear an outcry about 
that.
    So, perspective, to me, is always something we need to 
consider.
    One of the things that concerns me also is--I wish that 
Admiral Giroir was here. I asked this question of him last time 
he was here, and we didn't have enough time to continue our 
discussion on it. But with regards to the sort of perverse 
incentive for the medical folks to claim that somebody died of 
COVID versus, if it was an automobile accident, for instance, 
as long as you have COVID in your system, you get to claim it 
as a COVID death, which means you get more money as the 
attending physician, hospital, whatever.
    And he acknowledged that the statistics he's getting from 
the states are overinflated. We found that the Governor of 
Colorado, who is a Democrat, actually did research on this and 
found he had to get rid of 12 percent of the deaths that were 
recorded in the state.
    Dr. Redfield, would you like to comment on that a little 
bit, about the perverse incentive? And is there an effort to 
try and do something different in the way that these deaths are 
recorded so we actually have better records and better numbers, 
better data to go with?
    Dr. Redfield. Thank you, Congressman.
    I think you're correct, in that we've seen this in other 
disease processes, too, really. In the HIV epidemic, somebody 
may have heart attack but also have HIV. The hospital would 
prefer the DRG for HIV because there's greater reimbursement. 
So, I do think there's some reality to that.
    When it comes to death reporting, though, I mean, 
ultimately, it's how the physician defines it in the death 
certificate. At our National Health Statistics Group here in 
Hyattsville, we review all those death certificates.
    So, I think it's probably less operable in the cause of 
death, although I won't say there are not some cases. I do 
think, though, when it comes to hospital reimbursement issues 
for individuals that get discharged, there could be some play 
in that for sure.
    Mr. Luetkemeyer. Well, the Admiral certainly acknowledged 
that the last time he was here, so I think that's very 
concerning.
    You know, Dr. Fauci, one of the things--you made a comment 
a while ago with regards to hydroxychloroquine. And I have an 
article here that quotes the Henry Ford Health System, who did 
an extensive study on hydroxychloroquine, and they say that it 
significantly reduces the death rate of COVID patients. The 
study was highly analyzed and peer-reviewed, unlike many other 
studies.
    I'm quoting the executive officer, who said, ``As doctors 
and scientists, we look at the data for insight. And the data 
here is clear: There was a benefit to using the drug as a 
treatment for sick and hospitalized patients.''
    And in talking with a lot of older doctors who have been 
around a while and I trust their judgment and their use of 
hydroxychloroquine, they say that the initial studies didn't 
really use zinc with it. They say that zinc is an enabler to be 
able to help hydroxychloroquine actually do its job of going 
after and reducing deaths in patients. I had a long 
conversation with a doctor earlier in the week, and he said, 
yes, as long as zinc is there, it really definitely does work. 
Without it, it's minimally effective.
    Would you like to comment on that?
    Dr. Fauci. Yes, sir. Thank you for that opportunity to 
comment.
    The Henry Ford hospital study that was published was a 
noncontrolled retrospective cohort study that was confounded by 
a number of issues, including the fact that many of the people 
who were receiving hydroxychloroquine were also receiving 
corticosteroids, which we know from another study gives a clear 
benefit in reducing deaths with advanced disease.
    So, that study is a flawed study. And I think anyone who 
examines it carefully sees that it is not a randomized, 
placebo-controlled trial. The statement----
    Mr. Luetkemeyer. It said it was peer-reviewed.
    Dr. Fauci. It doesn't matter. You can peer-review something 
that's a bad study. But the fact is, it is not a randomized, 
placebo-controlled trial.
    The point that I think is important, because we all want to 
keep an open mind: Any and all of the randomized, placebo-
controlled trials, which is the gold standard of determining if 
something is effective, none of them have shown any efficacy 
for hydroxychloroquine.
    Having said that, I will state, when I do see a randomized, 
placebo-controlled trial that looks at any aspect of 
hydroxychloroquine, either early study, middle study, or late, 
if that randomized, placebo-controlled trial shows efficacy, I 
would be the first one to admit it and to promote it.
    But I have not seen yet a randomized, placebo-controlled 
trial that's done that. And, in fact, every randomized, 
placebo-controlled trial that has looked at it has shown no 
efficacy.
    So, I just have to go with the data. I don't have any horse 
in the game one way or the other. I just look at the data.
    Mr. Luetkemeyer. Thank you very much.
    I yield back.
    Chairman Clyburn. The gentleman's time has expired.
    The chair now recognizes for five minutes Ms. Velazquez.
    You want to yield to Kim?
    Mr. Kim is now recognized for five minutes.
    Mr. Kim. Thank you.
    I just wanted to start here picking up where I left off. 
You know, I started my last question line asking each of you if 
our Federal Government was doing everything possible to be able 
to respond, and each of you said within the capabilities of our 
government that we were.
    The reason why I want to address this is, when we talk 
about a national testing strategy or greater coordination on 
personal protective equipment, what I've heard over and over 
again is that, you know, it's about where the responsibility 
is. Is this the responsibility of the Federal Government or the 
responsibility of states or localities? And.
    When I talk to the people in my district, what they want to 
know is about capabilities, and they really don't want to just 
see this kind of blame game between different parts of our 
government. And the main thing they want to ask is, are we 
doing everything humanly possible to be able to address this 
crisis, and is every level of government, including the Federal 
Government, doing everything they can to do this? And if we are 
not, the American people deserve to know why.
    So, Dr. Fauci, I wanted to go back to you here, because, 
just to be clear, when I asked you this and you said that 
within the capabilities that we were, I wanted to ask you, 
would you say that our response at the Federal level to this 
crisis, would this be considered--in your mind, drawing on all 
of your expertise, is this the gold standard of responses that 
our Federal Government can do?
    Is there nothing else that you can think of, from your 
expertise and experience, that we could be doing or should be 
doing that we're not already doing?
    Dr. Fauci. I think I just have to repeat what several of us 
said, that within the context of what we have, what's available 
to us, we're doing everything that we possibly can.
    And I'll just repeat what I said. Clearly, the thing that I 
am responsible for, we are doing everything that we possibly 
can. Absolutely.
    Mr. Kim. And within what you see with your position on the 
task force, for instance, are you confident in the level in 
which we're using the Defense Production Act to be able to 
bolster production?
    Dr. Fauci. You know, that's something that's really out of 
my realm, Congressman, about the extent and the implications of 
the Defense Production Act.
    Mr. Kim. What about when it comes to, you know, we have 
these federally--we had federally backed test sites that we had 
stood up, like, 41 across the country----
    Dr. Fauci. Right.
    Mr. Kim [continuing]. But they've been handed over to 
states. Are you confident that that was the right move, that we 
shouldn't be standing up more federally backed test sites that 
are run by the Federal Government right now?
    Dr. Fauci. I'm sorry, what? The question--I'm----
    Mr. Kim. The federally backed test sites that we had stood 
up, 41 of them across this country, we've been handing them 
over to the states instead----
    Dr. Fauci. Yes.
    Mr. Kim [continuing]. Of continuing this in the Federal 
Government's control. Do you feel like that's the right 
decision?
    Dr. Fauci. Yes, I don't think I could give a really good 
answer to that, because that's not something that I get 
involved with.
    So, I don't know, maybe, Bob, do you have any further 
information about federally funded testing sites? Because 
that's out of the purview of what I do.
    Mr. Kim. Dr. Redfield, do you have any thoughts on this?
    Dr. Redfield. Well, I think it was important, as the 
chairman alluded to, to begin to enhance and transfer this 
capacity to these federally funded health clinics and to 
increase that capability. It is a partnership, so I think that 
these were appropriate moves.
    I do think when you ask are we doing everything that we 
could do, there's two things I'd like to say.
    One is, don't miss this opportunity to realize how 
important it is to make the investment in the core capabilities 
of public health for the future. Because, clearly, we were 
handicapped when this outbreak started, and we don't need to 
have that happen again.
    Second, I don't underestimate who ultimately is the most 
important in helping us beat this pandemic, and that's the 
American public themselves.
    Mr. Kim. Look, I get that, but I find that to be a 
frustrating narrative too. Because certainly all individuals 
have to take on some responsibilities to be able to do this, 
but that feels like we're pushing it off to them, and it feels 
like that responsibility is now being pushed to the American 
people coming out from that.
    And, for instance, as you know, Congress, we passed 
legislation back in April that includes $25 billion in 
additional funding for testing and tracing. I'm still hearing 
that a lot of that hasn't been used.
    So, I wanted to ask you if you have knowledge of how much 
money has been--hasn't been spent on this and whether or not 
the OMB or any other part of the government is holding up 
access to be able to do that so we have the capabilities and 
the resources to be able to increase our capabilities.
    Dr. Redfield. It's important, Congressman. Of that money, 
of that $25 billion, which is a significant amount of money, 
$10,250,000,000 came to CDC. And we got that money out to the 
states, Tribes, local and county health departments literally 
within two, three, four weeks. And that's been all distributed. 
Now, how they've used----
    Mr. Kim. Just one last question here, Dr. Fauci. Do you 
have thoughts on using rapid antigen testing or Respi-Strip 
testing, things like that that could create more point-of-care 
response?
    Dr. Fauci. Yes, I can answer that one. Sure. Anything that 
gets us a quicker, more rapid, more scaled-up capability of 
testing is something that would be desirable.
    In fact, that was one of the things I mentioned, very 
quickly, in the third component of the NIH strategic plan, the 
RADx, which is about a half a billion dollars to try and 
develop exactly the kinds of tests that you're talking about--
rapid, point-of-care, highly sensitive, highly specific.
    Mr. Kim. Well, let's try to work on that together.
    Ms. Waters.
    [Presiding.] The gentleman's time has expired.
    Mrs. Walorski, you are recognized for five minutes.
    Mrs. Walorski. Thank you, Madam Chair.
    Thank you, Dr. Fauci, for hanging out with us. Really 
appreciate it.
    I think the one question that I have left today--and I 
think it's a question the American people want to know; my 
district certainly wants to know in Indiana--is it your 
opinion--do you believe that China covered up the origins of 
the crisis?
    You are in this closer than anybody else in our country, 
and the American people listen to what you have to say. I've 
been asking lots of questions since this committee was created, 
because I think China needs to be held to a much higher 
standard than we're holding them.
    But do you believe China covered up the origins of the 
crisis?
    Dr. Fauci. You know, Congresswoman, it really depends on 
what you mean, ``origin of the crisis''----
    Mrs. Walorski. The beginning of the pandemic----
    Dr. Fauci. Yes. OK.
    Mrs. Walorski [continuing]. The disease itself----
    Dr. Fauci. OK.
    Mrs. Walorski [continuing]. As it broke on TV and we saw 
it.
    Dr. Fauci. Right. Well, I think, from what we know--and I'm 
sure Bob can also comment on that--from the conversations that 
we had early on, it was led to believe that, early on, that 
this was jumping from an animal to a human in the context of 
the wet market in Wuhan and that it was inefficient virus that 
just jumped from an animal to a human and didn't necessarily 
spread very well from human to human.
    At a time when it was clear that there was at least a few 
weeks and maybe more of transmission from human to human that 
we didn't know about, and then when we finally found out that 
it was a highly efficient transmitter from human to human, it 
would've been nice to know about that sooner.
    Mrs. Walorski. All right.
    Do you think China is a threat to the American vaccine 
research that we've been talking about for the past three 
hours?
    Dr. Fauci. Did China do what with the vaccine?
    Mrs. Walorski. Do you believe that China is still a threat 
today to the American vaccine research after we----
    Dr. Fauci. No. No, I don't think so at all.
    I think one of the things people need to understand, that 
what we do is really transparent. We publish it, we announce 
it. So, if they want to hack into a computer and find out what 
the results of a vaccine trial are, they're going to hear about 
it in the New England Journal of Medicine in a few days anyway.
    Mrs. Walorski. So, you know, when I testified earlier, I 
was talking about the fact that, just a few days ago, that our 
country indicted by the Justice Department two Chinese 
nationals for hacking the heroes that are working on a vaccine.
    China has obstructed every single thing that we've done, 
turn that we've made, place that we go, starting all the way 
back with PPE. And I was very involved in my district in trying 
to get PPE, and China was obstructing every single part of the 
way. So, I think, you know, my fellow folks in my district and 
in this country believe otherwise.
    I think, you know, the American people want to make sure, 
when we're talking about safe vaccines and we're talking about 
the FDA and we're not short-cutting safety and those kinds of 
things, I don't know how in the world that we can stand there 
and say, ``No, I don't think China is a threat to the vaccine 
production in this country'' when we just indicted two people, 
and not just two--but I think that question is so important.
    Madam Chairwoman, I think it's so important, I want to re-
ask my question. I see our chairman is not here, but to you, 
Madam Chairwoman, I think we need to investigate that answer on 
cybersecurity. We've already indicted more than two people, but 
just two people in the last couple days ago. Why can't we have 
a hearing in here?
    And I understand the chairman has said before, well, 
there's other committees having hearings on the role of China. 
But nobody is having a hearing on the role of China versus the 
producers in America and the vaccine process that we're looking 
for, the heroes that are trying to save lives. That would be 
appropriate for this committee.
    Can we get a commitment, can I get a commitment from you, 
sitting in for the chairman, that we will actually have a 
hearing and look at this?
    Ms. Waters. This committee is chaired by Mr. Clyburn.
    Mrs. Walorski. Right now it's chaired by you, Madam----
    Ms. Waters. I do not intend to give you an answer to a 
question about how to run this committee in his absence. You 
may address him when he returns, not me.
    Mrs. Walorski. I appreciate that answer, and I will.
    But I think for the record, I think we still are owed an 
answer as to why we can't look at that in this committee. 
There's no other committee set up to look at the vaccine 
process of oversight than this one, especially having you 
gentlemen here today.
    So, I would yield back my time and add that for the record.
    And thank you, Dr. Fauci.
    Ms. Waters. Mr. Foster, you are now recognized for five 
minutes.
    Mr. Foster. Thank you, Madam Chair, and to our witnesses.
    Well, first off, I'd like to second the comments of my 
colleague, Representative Dr. Mark Green, on the letter that 
was recently sent from this committee providing for ongoing, 
real-time, bipartisan oversight of Operation Warp Speed by the 
Government Accountability Office, the GAO, with Dr. Green and 
myself as the bipartisan points of contact directing the GAO of 
points of interest to the committee.
    You know, in my time in science, I was involved in billion-
dollar research projects that were subject to GAO oversight. 
And they would bring in outside experts, they'd ask hard 
questions, and they report back to Congress the truth as they 
see it, you know, both from a technical and scientific point of 
view and also a project management point of view, which can 
often be critical.
    GAO is fastidiously nonpartisan. They will give us real-
time briefings, staff briefings and Member briefings, and 
periodic reports on the progress of vaccine and therapeutic 
manufacturing under Operation Warp Speed. But they will only 
give us briefings on a bipartisan basis, which I think is very 
valuable, because it will be crucial that people believe, when 
vaccines and therapeutics become available, that the process 
was not politicized, that we actually have bipartisan agreement 
that reasonable decisions, you know, free of conflicts of 
interests or political intrusion are being made. And the GAO is 
intent on not becoming a tool for partisan advantage, which 
really helps our government work better.
    So, an example of the sort of thing that I'm interested in 
having them look into is something that I was discussing with 
Dr. Redfield over the break, which is monoclonal antibody 
therapeutic manufacturing.
    You know, a lot of the good news is that there is, in fact, 
a strong immune response to this virus by the human immune 
system. Well, this means, among other things, that vaccines are 
more likely than not to work, and it also means that antibody 
therapeutics are more likely than not to work, as they have 
against recent viruses.
    So, we may be in this position where, yes, there's a 
miracle cure that can then prevent or cure COVID-19 but we do 
not have the manufacturing to meet the demand, especially given 
the ongoing flare-up of COVID-19 in our country. So, then you 
can imagine the politics of that will be extremely fraught, 
rapidly, when we have to decide how to dispense these 
potentially lifesaving therapeutics.
    It's also a circumstance in which aggressive project 
management may be crucial. You know, you can imagine, if you 
want to produce the maximum number of antibodies, you may say, 
OK, we are going to choose the most effective antibody from 
company A, we are going to produce it using the optimized cell 
lines from company B, and we're going to use the high-volume 
production equipment of company C. This will require things 
like the Defense Production Act being used at their fullest to 
just leapfrog around issues of, you know, things like 
intellectual property. You know, already, the parties that are 
optimizing cell lines are getting into patent fights and so on. 
We don't have time for that.
    And so, one of the things I would like the GAO to look into 
is to make sure that we have in advance the sort of project 
management--you know, that the contracts that are being made 
with all of these companies anticipate this, or that 
discussions for the applications of the Defense Production Act, 
you know, are actually taking place ahead of when they'll be 
needed. It's just one of many examples there.
    I just want to encourage, you know, both of you and HHS 
generally to greet with open arms the GAO oversight. They can--
you know, it's not always fun being subject to GAO oversight, 
but their questions actually make the projects better.
    Also, I think you've probably been involved with projects 
that have been involved with GAO oversight. So, there's a 
career-long association of the GAO personnel and the agencies 
they represent, so that, you know, it's not like you're getting 
a letter from Congress where you just kind of roll your eyes 
and try to do the minimum. You know, these are serious 
questions by professionals.
    So, Dr. Green and I intend to use that to provide real, 
bipartisan information to this committee and to Congress and to 
the American people about what's really happening. And I think 
that will be crucial.
    So, any of you, do you have any comments on other things 
that we can do to really make the public confident that the 
right decisions are being made for the right reasons in this?
    Dr. Fauci. Well, thank you for that, Congressman Foster. 
Yes, I mean, the fact is that we are very transparent in what 
goes on in Operation Warp Speed. I have been----
    Mr. Foster. Well, but there have been public comments by 
the scientists------
    Dr. Fauci. Yes.
    Mr. Foster [continuing]. The ACTIV collaboration, which was 
set up by HHS. Some of the scientists involved in that said, I 
have no idea what's behind one of the Operation Warp Speed 
decisions.
    Dr. Fauci. Right. So, in direct answer to your question, I 
think you've brought up a good point about the monoclonal 
antibodies. We didn't get an opportunity to mention this in any 
of the questions, but monoclonal antibodies--just this week, 
there were two trials that have been initiated, one on an 
outpatient basis for early patients, one on an inpatient for 
more advanced patients, which we really have a lot of 
anticipation that that is going to be something that is going 
to be an important tool in the armamentarium of how we treat 
COVID-19 patients. So, I wanted to get that in, because I think 
that's really important.
    Regarding the scrutiny of the GAO or otherwise, I have 
been, in the many years that I've been doing this, had many
    GAO looking into the things that I have done. In fact, I 
have found it in many respects very helpful.
    Mr. Foster. Thank you.
    I yield back.
    Ms. Waters. The gentleman's time has expired.
    Ms. Velazquez, you are recognized for five minutes.
    Ms. Velazquez. Thank you, Chairwoman.
    I want to get back to the delays in testing.
    Researchers of the University of Pennsylvania recently 
found that testing sites serving communities of color in big 
cities are fewer in number, have longer lines, and often run 
out of tests faster when compared to sites in Whiter areas in 
those same cities.
    As formal Federal Reserve Chairs Ben Bernanke and Janet 
Yellen told the select committee, nothing is more important for 
restoring economic growth than improving public health. Yet we 
have a President that says: Slow down testing, please. And the 
most vulnerable among us are being impacted--frontline workers, 
small businesses that cannot reopen safely, and Black and 
Latino populations.
    So, I have some questions along these lines.
    Dr. Fauci, I have a simple question for you. Do you 
attribute this inability to control the virus to the delays in 
testing and contact tracing?
    Dr. Fauci. Control of the virus is clearly a multifaceted 
process that involves many things, the most important of which 
is what we were just speaking about before, about testing--
about masks, crowds, outdoor versus indoor, distances, et 
cetera, et cetera. We've been through that multiple times 
during this hearing.
    Testing is a part of the process, but the process of 
controlling infection--when you're talking about contact 
tracing, obviously, you need testing, and you need testing back 
within a reasonable period of time. And the concern that you're 
expressing is for the days that it takes. And Admiral Giroir 
has addressed that several times during this hearing. But 
testing is a part of the comprehensive approach, not the only 
thing----
    Ms. Velazquez. Sure.
    Dr. Fauci [continuing]. But is part of the approach.
    Ms. Velazquez. Thank you.
    South Korea had rapid results for testing and tracing, and 
the virus is essentially contained there or gone. Do you agree 
that what they did with respect to testing helped those 
countries get the virus under control?
    Dr. Fauci. Virus under control of some of the Asian 
countries were due to a number of factors: their ability to 
shut down almost completely, as I mentioned in a remark before, 
to the tune of 90-plus percent----
    Ms. Velazquez. Did they rush to reopen the economy?
    Dr. Fauci. No, they shut down. They had the capability, 
because they got down to a very low baseline, to do adequate 
identification, isolation, and contact tracing.
    Right now, they are trying to reopen. It's going to remain 
to be seen how successfully they do that.
    Ms. Velazquez. So, for the record, does testing result in 
the U.S. seeing more COVID-19 cases, or are other factors 
causing the spread?
    Dr. Fauci. I'm sorry, I didn't hear you.
    Ms. Velazquez. Does testing result in the U.S. seeing more 
COVID-19 cases, or are other factors causing the spread?
    Dr. Fauci. I'm sorry. I didn't quite get it. It's my fault. 
I have a problem----
    Ms. Velazquez. OK. So, are we seeing more COVID-19 cases in 
the U.S. because of the testing results?
    Dr. Fauci. I'm sorry. I get it now.
    Well, obviously, if you do more testing, you're going to 
see more cases.
    Ms. Velazquez. OK.
    Dr. Fauci. But the increases that we're seeing are real 
increasing in cases, as also reflected by increasing in 
hospitalization and increasing in deaths.
    Ms. Velazquez. And why is it that professional sport 
leagues can get testing turnaround times within 24 hours but we 
cannot do it for all Americans?
    Dr. Fauci. Well, some of the sports clubs have been using 
the rapid test, which is really very different from the test 
that requires extraction of DNA and takes time in a different 
machine. So, they have bought a bunch of machines that allow 
testing to take place where you get a positive back in five 
minutes and you can declare negative in
    15 minutes.
    Ms. Velazquez. Dr. Redfield, do you support the fact--do 
you agree with the fact that there is a disproportionate 
testing going on among Latinos, Blacks, Native Americans?
    Dr. Redfield. I wish the Admiral was here to answer it, but 
I've heard him answer this before--and Tony may comment--that 
he has set up, disproportionately, these testing sites in areas 
that have indications of more complex socioeconomic status--I 
don't remember the exact number, maybe Tony does, but more than 
70 percent--intentionally trying to target areas that may be 
more disadvantaged.
    So, I wouldn't agree with that statement, but I would like 
the Admiral to be able to get back to you with the specifics.
    Ms. Velazquez. So, you haven't seen the long lines in the 
urban cities and also in states where we have large population 
of----
    Dr. Redfield. Yes.
    Ms. Velazquez [continuing]. Latinos and Blacks?
    Dr. Redfield. I've seen the television lines.
    Ms. Velazquez. Uh-huh.
    Dr. Redfield. What I was trying to say--when you said, was 
it specifically disproportionate for Hispanic/Latino or African 
American or Native Americans, and I'm not comfortable 
supporting that comment. I would rather get the specific data 
from the Admiral, which--I do think the system has really gone 
over the other way, to try to make sure we've enhanced the 
community health centers and these federally assisted testing 
sites in areas that are specifically more disadvantaged.
    Ms. Velazquez. Uh-huh.
    Chairman Clyburn. The gentlelady's time----
    Ms. Velazquez. I yield back.
    Chairman Clyburn [continuing]. Has expired.
    The chair yields five minutes to Mr. Raskin.
    Mr. Raskin. Thank you very much, Mr. Chairman.
    And if you're trying to still figure out why the 
administration and our Republican colleagues cannot formulate a 
plan of action, look no further than the disgraceful diversions 
and distractions of some of our colleagues today.
    I want to address the First Amendment line of questioning 
first.
    Our distinguished colleague from Ohio keeps raising, for 
some reason, the Supreme Court decision in South Bay United 
Pentecostal Church v. Newsom, which rejected his position, just 
about six weeks ago, in a five-to-four decision.
    There, a church said that the restrictions limiting the 
number of people who could go to church to 100 were perfectly 
constitutional because that was the exact same rule that 
applied to lectures, concerts, movies, spectator sports, 
theatrical performances, political party gatherings. And so, in 
other words, there was no religious discrimination taking 
place, which is why the Supreme Court rejected the claim.
    And there is no religious free exercise exemption to public 
health orders, as you were indicating, I think, Dr. Fauci. So, 
the parties in the case cited numerous cases of church 
gatherings with people unmasked, singing, chanting, and so on 
that became super-spreader events. There is no religious 
immunity to this disease, and there is no free exercise 
exemption to universal public health orders.
    Now, as for protests, let us not confuse the issue. Whether 
your protest is a right-wing protest, like Boogaloo and Proud 
Boys and anti-public-health-order protesters, like the ones who 
threatened the life of Governor Whitmer and tried to shut down 
the Michigan legislature and succeeded in doing so, or it's the 
nonviolent assemblies of millions of people with Black Lives 
Matter across the country, the kind endorsed by our late 
beloved colleague John Lewis, the champion of nonviolence, the 
same rules must apply. If a jurisdiction has a 6-foot rule and 
a masking rule, which I assume and hope every one of them does, 
it applies equally to everybody.
    And the preliminary results suggest--and I know, because 
I've been to a lot of the Black Lives Matter protests--is 
people are not getting infected there as much because they are 
observing those rules. Obviously, when you go to an anti-
public-health-order, anti-masking protest, like the kinds that 
shut down the legislature in Michigan, most people are not 
wearing masks and are not observing the public health protocols 
they have come to try to destroy.
    So, if you're really concerned about the protests and 
people getting sick there--and we should be--then we have to 
look at the use of tear gas and pepper spray. Everybody saw the 
secret Federal officers who were assembled by Attorney General 
Barr in Oregon remove the mask of a Naval veteran and spray 
pepper spray right in his face. That's extremely dangerous, to 
remove someone's mask and then to have them sneezing and 
coughing and so on. So, it's the use of those chemical 
irritants, I think, which is the real danger.
    But, Admiral Giroir, what I wanted to ask you was about the 
role that Jared Kushner has played in developing the 
administration's approach to--is he still with us, or is he--
oh, he's gone now. OK.
    Well, Dr. Fauci, let me turn to you then. Are you aware of 
the role that Jared Kushner has played in developing the 
administration's approach to diagnostic testing?
    Dr. Fauci. I have no knowledge of that, Congressman, 
because I've not been involved in that. It's really been 
Admiral Giroir being involved in that.
    Mr. Raskin. OK. Well, then I'm sorry I missed Mr. Giroir in 
this second round.
    But, yesterday, Vanity Fair reported something astonishing, 
which is that Jared Kushner recognized that there was no plan, 
and he formed a secret working group at the White House in 
March and April to develop a national testing plan, which 
operated in a, quote, ``bubble,'' and did not coordinate with 
other experts at HHR--rather, HHS.
    And they actually came up with a very detailed and 
potentially effective national testing plan--one person 
involved said it wasn't rocket science but it was a real plan--
in which the government would coordinate the distribution of 
test kits and an aggressive program of contact tracing across 
the country.
    But the White House reportedly dropped the plan, according 
to this article, ``How Jared Kushner's Secret Testing Plan 
'Went Poof Into Thin Air.' '' OK? The White House dropped the 
plan on the political logic that the outbreak was going to be 
limited to Democratic states--this was back in March--in New 
York and New Jersey. And you remember, there was a lot of talk 
about how this was a blue state disease and there was somehow 
some kind of political or ideological immunity to getting it.
    So, they thought it would be a better strategy just to pit 
the states against each other in that vicious free-for-all for 
equipment and materials and then blame the Governors when 
everything went wrong. And we've seen the shocking, devastating 
results of just letting it go and not having a plan at all.
    With that, I'd yield back to you, Mr. Chairman.
    Chairman Clyburn. I thank the gentleman for yielding back.
    I think we're finished our second round of questions, and I 
would like to now yield to the ranking member for any closing 
statement he might want to make.
    Mr. Scalise. Thank you, Mr. Chairman.
    And, again, I want to thank our witnesses for coming here, 
including Dr. Giroir, Dr. Fauci, Dr. Redfield. You are on the 
front lines, as well as the teams that are behind you, working 
to implement President Trump's plan to combat this virus.
    In fact, Dr. Giroir left to go address thousands of people 
who work under him. He talked about 7,000 deployments that have 
been made under President Trump's command to have men and women 
in uniform going on the front lines to help at the state and 
local level.
    We've seen so much work being done in this plan. And I keep 
going back to it, because I know some people want to deny that 
this plan exists, of course, at the same time that they're 
criticizing components of the plan.
    You know, part of this plan--again, there's thousands more 
pages online. This is just a small part of President Trump's 
plan to combat the coronavirus.
    Part of the plan included stopping flights to China, which, 
as Dr. Fauci testified under oath, saved lives. That was 
President Trump's call. He got criticized from it. In fact, he 
got criticized from some of the very people who say that he 
doesn't have a plan, yet they criticize parts of his plan, and 
that plan worked and saved lives.
    I know, Dr. Fauci, you testified under oath about some of 
the other decisions that were made by President Trump, working 
in conjunction with you and the rest of the team, these 
internationally respected medical doctors, that saved lives. 
Thank God President Trump keeps his focus on carrying out this 
plan every day while people are literally trying to disagree 
with it and then deny it exists at the same time.
    And so, when you look at now where we are with Operation 
Warp Speed--and this is something that is so incredibly 
important, working to find an actual vaccine for the disease. 
And, again, Dr. Fauci--I know, Dr. Redfield, you talked about 
this, but I appreciate you giving out the website again. Over 
250,000 Americans have now signed up to be tested for this 
virus. It might be one of the most tested trials for a new 
virus in American history, probably the quickest time that 
we've been able to get a vaccine for a disease we knew nothing 
about even six months ago because China lied to us, because 
China still to this day is trying to interfere with our 
ability.
    While we're working feverishly to get the vaccine, China is 
working feverishly to try to steal the vaccine. We ought to 
have a hearing on that, Mr. Chairman. I know Mrs. Walorski 
talked about that and brought that issue up.
    You know, when you look at the incredible work, as Dr. 
Giroir is doing on testing, to get those testing kits into 
nursing homes, that's part of President Trump's plan, and, in 
fact, it is saving lives.
    If those five Governors who did not follow the Federal 
guidelines would've followed the Federal guidelines, again, as 
testimony under oath confirmed, thousands of deaths would not 
have happened. I wish they would've followed the guidelines.
    I wish they'd share the data. They're still hiding the 
data, those five Governors. We've asked them, those of us on 
the Republican side. If just one member on the Democrat side, 
Mr. Chairman, would join us in asking those Governors to share 
the data that they're hiding from the American people, they're 
hiding from the families, the sons, the daughters, the 
grandchildren of those who died in those nursing homes--they're 
hiding that data, and they won't give it to us. They said they 
don't have to give it to us because not a majority of this 
committee has asked. I wish, Mr. Chairman, you'd join us in 
asking to get that data. What's wrong with asking for the 
facts?
    And so, then you look at opening schools. You want to talk 
about saving lives--and this is one of those untold stories, 
unfortunately. There are 50-million-plus children across 
America who are counting on us to get it right. The good news 
is the Trump administration has laid out a plan for how to 
reopen schools safely.
    You know, just right here, you talk about school 
administrators on the use of cloth face coverings. CDC suggests 
that all school reopening plans address adhering to behaviors 
that prevent the spread of COVID-19. They go into detail on all 
the things you should do, as we talked about--washing hands, 
all of that. You can socially distance. You need to socially 
distance.
    You can do it; in fact, you need to do it. But to say you 
can't do it is a cop-out. This is America, for goodness' sake. 
We put a man on the Moon. You can follow basic guidelines.
    If you don't want to trust CDC, go to the American Academy 
of Pediatrics, for goodness' sake, who put out really good 
guidelines for how to safely reopen schools.
    And they went further and said the danger to children. 
You're hurting kids by not reopening schools, as Dr. Redfield 
testified. The thousands of kids that aren't getting diagnosed 
with things like child abuse, which is happening, 
unfortunately. It gets discovered in the schools. That's not 
happening. The nutrition programs, the mental health programs. 
There are drug overdoses happening today that wouldn't be 
happening if those kids were going back to school.
    You have to get it done, and don't say it's because of 
money. You can't say it's because of money. Here's the--every 
state in the Nation's got money. We put over $150 billion out 
there. Do you know that, based on this list, about $100 billion 
of money we in Congress appropriated, President Trump signed 
into law, about $100 billion still available in every state.
    And this money, without changing the law, could be used to 
provide all of those supplies that the experts said you need to 
reopen your schools safely. It's all there for you. If you run 
out, give us a call. But the money is there. Don't use that as 
an excuse.
    We all owe it to the kids. If there's never been a better 
time to make the argument for school choice, for goodness' 
sake. You've got some of these unions that are saying they 
don't want to go back to school. Then, as Mr. Jordan pointed 
out, they're encouraging people to go to a protest, where 
you're not socially distanced. But they say you shouldn't be 
able to safely reopen the school. But they want to take the 
money.
    How about, if there's another school system that's willing 
to safely educate your child, shouldn't the parent be able to 
do that? Why deny parents in low-income communities the ability 
to have the same choice that other people that aren't in low-
income communities have? That ought to be on the table too. 
Because there are systems all across this Nation that have 
figured it out. Again, you don't need to reinvent the wheel.
    It's all there in the President's plan. President Trump has 
laid this out. You can go to the websites to get it. Call me, 
I'll give it to you. But it's there. If you don't like it, you 
put a better plan on the table. Of course, they haven't done 
that.
    But, in the meantime, don't deny those children the 
opportunity to seek the American Dream that everybody else has 
deserved over the history of our country. And that's what will 
happen if they don't follow those safety guidelines and safely 
reopen the schools.
    So, with that, Mr. Chairman, I again thank the witnesses.
    Appreciate the work you're doing. I wish we could followup 
on some of the other issues, like Mr. Jordan--police officers 
that are being attacked right now and being put at risk to 
coronavirus. We had a hearing in this committee on our 
frontline healthcare workers, and it was an important hearing. 
I'd like to see us have a hearing on those law enforcement 
officers who are being put at risk by the attacks on them that 
we're seeing all across the country.
    And then, of course, China, the role that China has played 
from the beginning in lying to us, hiding information, now 
trying to steal our information every step of the way. We ought 
to have a hearing to hold China accountable too.
    So, appreciate the work you're doing. Please continue to go 
do that. Tell all the men and women that are sacrificing to 
help combat this virus, working with President Trump, we thank 
them on behalf of all Americans who want to see us get behind 
this and get back to the things that we used to do.
    With that, Mr. Chairman, I yield back.
    Chairman Clyburn. I thank the ranking member for his 
closing statement and for yielding back the time.
    Let me begin by reminding him that we did have a hearing 
for essential workers. And if my memory serves, police 
officers, law enforcement officers were included.
    Mr. Scalise. Mr. Chairman----
    Chairman Clyburn. They are essential workers.
    Mr. Scalise. In relation to the attacks we've seen on them. 
That's a new development since that hearing.
    Chairman Clyburn. Well, I suspect that the protesters that 
my friend Mr. Jordan seemed to be so preoccupied with have had 
some state-sponsored attacks made on them, much like those that 
we remember from a not-too-distant past.
    But, this week, a leaked White House Coronavirus Task Force 
report indicates that there are 21 states in the so-called red 
zone, and, for some strange reason, the report says that they 
were communicated with privately. And I'm kind of troubled that 
the administration would hide this from us.
    And so, I don't know that--this is not for questioning, but 
I'm going to ask Dr. Redfield if he would respond to us in 
writing on this. Because I would like to know whether or not we 
can depend upon, going forward, these kinds of reports to be 
made public rather than be issued to these states privately. 
Because it seems to us that, while the White House is 
maintaining a public statement as it relates to this virus, 
they have been sending some stuff to states privately. And I 
would hope that this could come to an end.
    Now, I would also like to say to my friend who seemed to be 
so concerned about kids going back to school, Mr. Ranking 
Member, we all want to see our kids go back to school. I'm the 
grandfather of two schoolchildren that I want to see in school. 
Though they are privileged enough to have the internet 
available to them, their classmates--many of their classmates 
don't. And, therefore, many of their classmates are not going 
to be allowed to go to the next grade. Those same classmates 
are going to be subject to losing another year of school. We 
all want them back in school.
    But I want to refer, since we are talking about the 
American Academy of Pediatrics--they have followed up with us. 
The American Federation of Teachers, the National Education 
Association, School Superintendents Association, they all 
joined together in issuing a statement on July 10. And, to me, 
here's for this operative.
    ``Public health agencies must make recommendations based on 
evidence, not politics. We should leave it to health experts to 
tell us when the time is best to open up school buildings, and 
listen to educators and administrators to shape how we do it.''
    I represent a congressional district that is about half and 
half what we might call rural and urban, though even the urban 
part of my district would be looked upon as being rural by some 
of my friends here on this panel from New York and California, 
so maybe I just do have a rural district.
    All I want to say is, it's different in rural America than 
it is in urban America. So, I don't know that we can, up here, 
come up with a one-size-fits-all. We should delegate to the 
professional superintendents and the principals of these 
schools to determine how best to reopen schools. We want them 
to reopen and arm them with all the resources they need to do 
that.
    So, this whole notion of just telling people to go back to 
school, that is one thing. Give the principals, the 
superintendents, the states, give them the resources they need 
and the guidance they need. And let them work with those rural 
communities that are different from urban communities, where 
they don't have the internet available to them and they can't 
do online learning.
    And they've got to be able to space. They've got to have 
masks. I represent families that cannot afford to buy masks 
every day. Many of them can't afford to buy the books. So, we 
ought not be putting that burden on them.
    And so, we have resources up here that we ought to get out 
to these school districts. And I know--I hear from teachers 
every day who go in their own pockets to pay for material for 
their students. That's happening every day, and they're 
preparing to go back to school with budgeting to do the same 
thing.
    Now, before we close, I want to enter into the record--I 
have entered--another letter from the American Association of 
Medical Colleges. And I'm asking unanimous consent that this 
letter be entered into the official hearing.
    And, without any objection, so ordered.
    Chairman Clyburn. I want to thank Dr. Fauci, Dr. Redfield, 
and Admiral Giroir for being here today. We appreciate the 
expertise you have shared as we work to end this terrible 
pandemic.
    As we heard today, a comprehensive plan to reduce the 
spread of coronavirus would save lives, but every day that 
effective action is not taken more lives are lost.
    Today's hearing has made clear that the Trump 
administration must put aside partisan concerns and work with 
public health and medical science experts to craft a 
comprehensive plan to defeat this virus.
    The plan must prioritize public health over perceived 
political expediency. The plan must ensure states have the 
testing they need. Give Americans clear public health advice, 
and follow the advice of legitimate experts like we have here 
today, even if their assessments are difficult for 
administration officials to hear.
    Much of this is inconvenient to the public. Nobody feels 
comfortable getting up every morning looking for a mask, and 
nobody feels comfortable riding around all day with a mask. 
It's inconvenient for everybody. So, it's uncomfortable for 
everybody.
    But the plan must include guidance and support for state 
and local governments, health departments, schools, and 
community organizations.
    I come from a part of the country where no education would 
have been available to my parents had it not been for churches, 
because the states did not sponsor education for them. My 
father was not allowed to graduate high school because no high 
school was available to the students in the county he grew up 
in. And so, we have got to bring local communities in this. The 
churches, temples, synagogues all need to be involved in this. 
This is not excluding any religion; we are trying to bring 
religious organizations into this effort. And we've got to 
protect our students and our teachers and not go rushing into 
reopening schools.
    Finally, the plan must address the grave inequities this 
virus has inflicted on minority communities. Our Black and 
Brown communities already faced health and wealth disparities 
before the coronavirus--that's what Ms. Velazquez was getting 
to in her last line of questionings--but particularly when we 
are dealing with this contagious virus.
    In the words of Dr. Martin Luther King, Jr., in his letter 
from the Birmingham City Jail, which I happen to believe--most 
people may not agree with me on this, but the Bible, to me, is 
a timeless document, and I believe that King's letter from the 
Birmingham City Jail is a very timeless document. He said in 
that letter, ``Injustice anywhere is a threat to justice 
everywhere.''
    Dr. King also said, and I quote, in that same letter, 
``Time itself is neutral.'' You may recall, he is responding to 
a letter that he had gotten from eight non-Black ministers who 
said to him that they agreed with him but the timing was not 
right. King, in his response, says, ``Time itself is neutral. 
It can either be used destructively or constructively.''
    And then he went on: ``More and more, I feel that the 
people of ill will have used time much more effectively than 
the people of goodwill.''
    This destructive virus, while it has no will, has used the 
past six months to spread more than 4 million of our fellow 
citizens--spread to more than 4 million of our fellow citizens.
    To prevent more lives from being lost, people of goodwill, 
including those who are here today--I consider you to be among 
the people I respect most in our government. People of goodwill 
must use their time constructively to combat the virus much 
more effectively than it has been to this point.
    Irrespective of how many tests we may give, irrespective of 
how we may shape up to the rest of the world, the question for 
us is: Are we using our time constructively? People of goodwill 
must correct past mistakes, embrace the science, work together 
in a bipartisan way to defeat this grave threat to our country. 
And if I might quote Dr. King once more, ``The time is always 
ripe to do right.''
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able.
     . And, with that, this hearing is adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
